<html>
<title> - THE CLIMATE CRISIS: NATIONAL SECURITY, PUBLIC HEALTH, AND ECONOMIC THREATS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  THE CLIMATE CRISIS: NATIONAL SECURITY, PUBLIC HEALTH, AND ECONOMIC 
                                THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

                            Serial No. 111-3





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
63-825 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)




                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       DENNIS HASTERT, Illinois
G.K. BUTTERFIELD, North Carolina          Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
BARON HILL, Indiana                  FRED UPTON, Michigan
DORIS O. MATSUI, California          ED WHITFIELD, Kentucky
JERRY McNERNEY, California           JOHN SHIMKUS, Illinois
PETER WELCH, Vermont                 HEATHER WILSON, New Mexico
JOHN D. DINGELL, Michigan            JOHN B. SHADEGG, Arizona
RICK BOUCHER, Virginia               CHARLES W. ``CHIP'' PICKERING, 
FRANK PALLONE, New Jersey                Mississippi
ELIOT ENGEL, New York                STEVE BUYER, Indiana
GENE GREEN, Texas                    GREG WALDEN, Oregon
LOIS CAPPS, California               SUE WILKINS MYRICK, North Carolina
JANE HARMAN, California              JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia












                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     5
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     7
Hon. Michael F. Doyle, a Representative in Congress from the 
  State of Commonwealth of Massachussetts, opening statement.....     7
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     9
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................     9
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................    10
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    11
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    12
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    13
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................    14
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    14
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    15
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    16
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont, opening statement.....................................    17
Hon. Eliot Engel, a Representative in Congress from the State of 
  New York, opening statement....................................    17
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    18
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    18
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    19
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................   134

                               Witnesses

Daniel Schrag, Director, Center for the Environment and Director 
  of the Laboratory for Geochemical Oceanography, Harvard 
  University.....................................................    20
    Prepared statement...........................................    23
    Answers to submitted questions \1\...........................
General Gordon R. Sullivan (Ret.), President and Chief Operating 
  Officer, Association of the United States Army.................    34
    Prepared statement...........................................    35
    Answers to submitted questions \2\...........................
R. James Woolsey, Venture Partner, Vantagepoint Venture Partners, 
  Former Director, Central Intelligence Agency...................    37
    Prepared statement...........................................    39
    Answers to submitted questions...............................   210
Kristie L. Ebi, Public Health Consultant, Lead Author, Public 
  Health Chapter of the 2007 Intergovernmental Panel on Climate 
  Change, Fourth Assessment Report...............................    68
    Prepared statement...........................................    70
    Answers to submitted questions...............................   217
Frank Ackerman, Senior Economist, Stockholm Environment 
  Institute-U.S. Center, Tufts University........................    84
    Prepared statement...........................................    86
    Answers to submitted questions...............................   229
Patrick J. Michaels, Senior Fellow in Environmental Studies, Cato 
  Institute......................................................   103
    Prepared statement...........................................   105
    Answers to submitted questions...............................   235

                           Submitted Material

Report entitled, ``National Security and the Threat of Climate 
  Change,'' 2007, submitted by General Sullivan..................   136
Report entitled, ``Energy and Climate Policy,'' December 2007, by 
  James L. Connaughton, Chairman of the Council on Environmental 
  Quality, submitted by Mr. Shimkus..............................   201

----------
\1\ Mr. Schrag did not respond to submitted questions for the 
  record.
\2\ General Sullivan did not respond to submitted questions for 
  the record.

 
  THE CLIMATE CRISIS: NATIONAL SECURITY, PUBLIC HEALTH, AND ECONOMIC 
                                THREATS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Edward 
Markey (chairman) presiding.
    Members present: Representatives Markey, Doyle, Inslee, 
Butterfield, Melancon, Matsui, McNerney, Welch, Dingell, 
Boucher, Pallone, Engel, Green, Capps, Harman, Gonzalez, 
Baldwin, Matheson, Barrow, Waxman (ex officio), Upton, Hall, 
Stearns, Whitfield, Shimkus, Pitts, Burgess, Scalise, and 
Barton (ex officio).
    Also present: Representative Christensen.
    Staff present: Dave Rapallo, Melissa Bez, Joel Beauvais, 
Alexandra Teitz, Matt Weiner, Caren Auchman, Jeff Baran, Amanda 
Mertens Campbell, Andrea Spring, Peter Spencer, and Garrett 
Golding.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning, and welcome to the Subcommittee 
on Energy and Environment and this very important opening 
hearing.
    We stand at a critical moment in history. The country is 
facing some of the deepest, most complex challenges it has ever 
confronted: an economy in peril, a broken energy system, a 
climate in crisis. These problems are inseparable and so are 
the solutions. We now have a choice to make. We can continue to 
sit on our hands, allowing our children and grandchildren to 
inherit a planetary catastrophe, or we can take action to 
unleash a technology revolution that will revive our economy 
while protecting our national and environmental security.
    Today's hearing is the first of many the subcommittee will 
hold in the coming weeks as we work with Chairman Waxman and 
Ranking Members Barton and Upton to pass a comprehensive 
climate and energy piece of legislation out of committee by 
Memorial Day. We begin this process by hearing from a 
distinguished panel about the grave threats that global warming 
poses to national and global security, public health, and 
economic growth. These witnesses are here in part to purge 
whatever complacency remains after 8 years of climate policy 
founded on denial, obfuscation, and delay. The American people 
are ready for bold action, and they expect Congress to pass 
legislation that will create jobs, save consumers money, and 
protect the planet. There is now a robust scientific consensus 
that global warming is happening, that manmade greenhouse gas 
emissions are largely responsible, and that if we fail to 
dramatically reduce those emissions starting now, catastrophic 
impacts will result.
    This leads to the real question in this debate: Can we 
afford not to act? The human and economic costs of continued 
delay are staggering, whether it is villages falling into the 
sea in Alaska, flooding in the Midwest, droughts becoming 
harder, longer, and more frequent in the south, or crop failure 
and water scarcity feeding a genocide in Sudan. We know that 
changes brought on or exacerbated by human-induced climate 
change are happening. These impacts will threaten national and 
global security, endanger public health, and damage the 
American economy.
    In last year's National Intelligence Assessment, the heart 
of our national security establishment, called the climate 
crisis a threat to American security. Public health 
professionals have told us that global warming is already 
causing tens of thousands of deaths annually in the developing 
world and poses a serious threat to public health here at home.
    Our economy is also in grave danger. If left unchecked, 
global warming will cost the United States trillions of dollars 
in coming years. Recent studies suggest that by 2050, our 
Nation could face at least half-a-trillion dollars in damages 
every year due to climate change, a 1.5 percent cut in GDP. 
Global GDP could fall as much as 20 percent.
    The costs of inaction are not limited to the impacts of 
global warming. They also include the price of lost 
opportunity. America was once the world's leader in renewable 
energy technologies but we are now losing those jobs to our 
overseas competitors. If we are laggards instead of leaders in 
the fight against global warming, we will miss out on the 
greatest economic opportunity of our time. Three point six 
million Americans have lost their jobs since the beginning of 
the current recession and climate legislation offers them new 
hope.
    In less than 300 days, the attention of the world will turn 
to Copenhagen, site of the negotiations that we hope will 
produce a plan forward for the global community to address 
climate change. The House of Representatives is now taking its 
first steps down the path towards a responsible policy on 
climate. As we put our domestic house in order, we can return 
the United States to its rightful place of leadership in 
solving the most pressing problems facing the world.
    That completes the opening statement of the Chair.
    Mr. Markey. We now turn and recognize the ranking member of 
the subcommittee, the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today's hearing does touch on a number of important aspects 
of the climate change debate, and I have said at nearly every 
climate change hearing that for me, I don't dispute the 
science. Right or wrong, the debate over the modeling and 
science appears to be over. We have got to get past that and 
look at our policy options and consequences of the actions that 
we need to take to address that issue. Whatever policy we 
deploy has to have real environmental impact, meaning a 
tangible change in global temperature, not just arbitrary 
reductions in CO<INF>2</INF> emissions. I want to know if the 
United States cuts emissions and China does not, how much will 
that impact global temperatures? With the ever-increasing 
emissions of the developing world, even if the United States 
reduces its emissions to zero, there would be no change in 
global temperature. Our climate change policies must be linked 
to a realistic reduction in those temperatures. Cap-and-trade 
legislation that we have seen so far, specifically legislation 
that was voted down in the Senate last year, and legislation 
introduced last Congress by the full committee chair would 
create economic opportunities for China and India, and it would 
also create a national security threat, I think, for this 
country.
    There is an analysis that is going to be released in the 
coming weeks by the National Commission on Energy Policy. It 
should be noted that the head of that group was also a top 
energy and climate advisor to President Obama during his 
campaign. They found that many energy-intensive businesses 
would fall far below a financial tipping point if Congress were 
to pass climate legislation similar to the bill that failed in 
the Senate last year. These companies would go offshore, 
creating economic opportunities for China and India, while 
making the environment, not to mention our economy, worse. 
Furthermore, if we lost those key industries and their many 
jobs, I think we would be on a weaker national security 
footing.
    History has shown that the United States is stronger with a 
robust manufacturing and industrial base. The jobs and 
industries that will bear the greatest cost of climate 
legislation are the very same industries that we need to keep 
in America to remain a power on the world stage. What happens 
to our national security when we don't manufacture much? What 
happens when we order all the steel and aluminum from China? If 
we take the wrong legislative path dealing with climate change, 
we run the real risk of permanently destroying our 
manufacturing and defense supply chains. I find it ironic that 
while the big issue of today is a stimulus package to revive 
our economy, we are also getting ready to go down a legislative 
path that, by all accounts, will reduce GDP, send jobs 
overseas, and make energy more expensive. Let us be honest. By 
design, that is how cap-and-trade works.
    Just last year, Members of this Congress were proposing 
legislation that would include residential electricity prices 
by 28 percent by the year 2015, over 40 percent by the year 
2020, reduce our GDP in 2015 by 2.3 percent, or $402 billion, 
and by 2050 by a 6 percent figure with a dollar amount a 
staggering $3 trillion. Michigan already is one of the hardest 
hit states in our weak economy. We would be disproportionately 
impacted. NAM did a detailed analysis of the impact on my home 
State of Michigan and the impact on jobs. The primary cause of 
job losses in Michigan would be the lower industrial output due 
to higher energy prices, the high cost of compliance, and 
greater competition from overseas manufacturers with lower 
energy costs. Most energy prices would rise under the 
proposals, particularly for coal and oil and natural gas. If we 
end up with legislation that looks like anything that we saw 
last year, doing an $800 billion stimulus this week won't be 
enough. We are going to send 3 million jobs overseas in the 
next 6 years and raise nearly $2,000 per household in 
additional costs. That stimulus package isn't going to be 
nearly enough to soften the blow.
    I do believe that we have to do work to address climate 
change. I don't dispute the science. But our response must be 
to protect the economy. It has got to be tied to international 
action and it must have a tangible environmental benefit. Most 
importantly, I think we need to focus on all of the above. That 
includes conservation, that includes renewable resources and 
yes, that includes nuclear, which has, as we know, no emissions 
of CO<INF>2</INF>. That is what we need to do to create jobs 
and, I think, to have a measured impact on improving our 
economy and doing it in the right, smart way, and I yield back 
my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the chairman of the full committee, the gentleman 
from California, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for 
recognizing me and for holding this hearing.
    As the Energy and Commerce Committee develops legislation 
to reduce greenhouse gas emissions, we are going to spend a 
considerable amount of time examining the potential costs of 
different approaches. We will have detailed government analysis 
and other assessments to project the possible effects of 
various proposals on electricity rates, gas prices, economic 
growth, and a host of other indicators, but what I hope we will 
not do is have an analysis of all of this compared to the 
analysis that we will hear about today if we do nothing. We are 
going to consider a different set of costs if we do nothing, 
the impact of these costs on our national security, public 
health, and the global economy.
    With global warming comes rising sea levels, severe 
droughts, increasingly intense storms, and more-frequent fires 
and the loss of agricultural land. These effects harm people 
and they impose huge costs on the economy. Human health will 
also suffer, even if we make significant improvements to our 
public health systems. For example, as heat waves increase in 
frequency and severity, more people will get sick, more people 
will die from heat-related illnesses, and as we saw with 
Hurricane Katrina, extreme weather events are harder on the 
sick than on the healthy and they cause additional health 
problems. With these and many other effects of global warming, 
the most vulnerable among us will be the hardest hit and this 
alone is a reason to act.
    But when military experts examine global warming, they see 
additional costs that also demand action. In 2007, a board of 
11 retired admirals and general reviewed the risks from climate 
change around the globe. Some of these retired military 
officials had not viewed climate change as a threat prior to 
this review, but based on their review, the entire board came 
to this conclusion: Climate change acts as a threat multiplier 
for instability in some of the most volatile regions of the 
world. They warned of large populations moving in search of 
resources and weakened and failing governments, which would 
foster conditions for internal conflicts, extremism and 
movement toward increased authoritarianism and radical 
ideologies. Retired General Anthony Zinni, former commander-in-
chief of the U.S. Central Command, put it this way: ``We will 
pay for climate change one way or another. We will pay to 
reduce greenhouse gas emissions today or we will pay the price 
later in military terms, and that will involve human lives. 
There will be a human toll. There is no way out of this that 
does not have real costs attached to it. That has to hit 
home.''
    I look forward to exploring these issues further with 
today's witnesses. I also look forward to working with you, Mr. 
Chairman, and all the members of our committee as we develop 
legislation over the coming months. Doing nothing is not an 
option that anybody should look at without feeling a sense of 
alarm.
    I yield back my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Florida for 2 minutes, Mr. 
Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman.
    In light of the dire warnings that you have outlined, you 
know, I really think what we need to do is innovate rather than 
regulate our way out of this energy dilemma. At a time when we 
are trying to stimulate our economy and avoid entering what we 
think is a prolonged recession, possibly a depression, there is 
all this talk about, Mr. Chairman, you bringing an energy bill 
here before Memorial Day, and I assume this energy bill would 
be patterned after the Lieberman-Warner bill, which would 
include cap-and-trade and a lot of the other highly regulatory 
measures. So I want us to be careful here in light of the 
economy that we don't want to destroy American jobs.
    As pointed out by the ranking member from Michigan, China 
has already surpassed the United States as the leading 
greenhouse gas emitter and India is not far behind. With 
equivalent efforts to limit these gases among China and India 
alone, the United States stands to lose many hundreds of 
thousands of jobs to these countries, which will profit from 
unilateral action taken by the United States. If we simply go 
ahead and do this without a cooperative effort with India and 
China, we will be hurting our workers today.
    Now, according to one leading think tank, if legislation 
similar to the Lieberman-Warner bill is enacted, they are 
talking about annual job losses that would exceed 500,000 
before 2030 and could approach 1 million jobs lost. In my home 
State of Florida alone, we are projected to lose about 300,000 
jobs by the year 2030 if this similar type of Lieberman-Warner 
bill is passed before this committee.
    Aside from losing these very desperately needed jobs to 
other countries, American families obviously would suffer under 
a cap-and-trade system. Now, the Charles River Associates 
International, its headquarters in Boston, Massachusetts, the 
chairman's hometown, stated that if we implemented that type of 
bill, the number of people that would go on unemployment would 
increase, subsequently into some type of welfare, and they 
project losses of $4 to $6 trillion, so I think we have to be 
cautious, Mr. Chairman, and I need to again say we need to 
innovate rather than regulate. Thank you.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the chairman emeritus of the committee, the 
gentleman from Michigan, for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and I thank you for holding this hearing today.
    As I said at the last climate change hearing held by the 
full committee, global climate change is the most serious 
environmental issue confronting this Nation. What we will hear 
today and what we heard in the subcommittee hearing last 
summer, however, is that this issue is not just an 
environmental matter. Instead, it poses a major threat to our 
national security and to the public health as well.
    We often hear about the costs of addressing climate change, 
and to be very clear, there will be significant monetary costs. 
Anybody who thinks otherwise is fooling themselves. But we must 
also make it clear that there is great cost to inaction. That 
we understand both the cost of action and the cost of inaction 
is of the utmost importance in designing fair and balanced 
climate change legislation.
    Now, I will not pretend that this is going to be an easy 
task nor can I assure you that it will not be. To start with, 
putting a dollar value on inflation is difficult. How do you 
value the effect of the storms that might happen or the value 
of potential species extinction? This is not easy to say as to 
how we should act. On the contrary, the scientific evidence is 
in and it is clear: We have no choice but to act. That is why 
I, along with Representative Boucher, released a draft last 
year of a bill to address climate change. It was an interesting 
piece of work, and interestingly enough, it embodied provisions 
which were supported by all parts of those involved in the 
controversy by the environmentalists and by business and 
industry, and it was a document which I think would be fairly 
easy for everyone to come to some kind of agreement on.
    Our witnesses today will tell us that our failure to act 
could put the planet and the country at risk or even risk of 
graver and greater consequences. Today's hearing will help us 
to understand potential security and the costs of those 
consequences. I hope as we go about the consideration of these 
questions we will take a look at the draft that Mr. Boucher and 
I released last year and that this will be one of the documents 
which we will consider as we go about the business of drafting 
legislation on this very important question.
    Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Kentucky, Mr. Whitfield.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you very much, Mr. Chairman, and we 
appreciate this hearing today.
    Kevin Trenberth, who was one of the lead authors of the 
United Nations' 2007 Intergovernmental Panel on Climate Change, 
stated in a blog that he has on Nature's journal that in fact 
there are no predictions by the Intergovernmental Panel on 
Climate Change and there never have been. The science is not 
done because we do not have reliable or reasonable predictions 
of climate. And so when we talk about the cost of not acting, I 
think it is particularly speculative. But when we talk about 
the cost of acting, there certainly is more reliable evidence 
of exactly the cost of acting, particularly when you are 
talking about implementing a cap-and-trade system. We can 
easily go to Europe and determine the cost of acting in Europe. 
We know that emissions have actually increased since the cap-
and-trade system was implemented in Europe. We also know that 
there have been significant job losses, and we also know that 
using a model based on the Lieberman-Warner bill, as my friend 
from Florida stated, the prediction is that throughout the 
United States by the year 2030 there would be 1 million people 
without jobs, primarily because the job loss would be caused by 
lower industrial output because of higher energy costs. And 
when you have countries like China, India and others that are 
relying more and more on coal production because of the low 
cost of coal, America is going to become even less competitive.
    And so as we talk today about impact on national security, 
the economy, and public health, I hope that we have some very 
strong scientific and economic evidence of the cost of 
inaction. I don't have any time left.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Pennsylvania, Mr. Doyle.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman. I want to start my 
remarks by thanking you for having this important hearing 
today.
    Mr. Chairman, at a time when our Nation is facing the worst 
economic crisis in generations, hearings like this one are very 
important. We must fully understand not only the cost we incur 
as we attempt to stimulate our economy today but what costs our 
Nation will face if we do not use this opportunity to address 
climate change as we rebuild our economy.
    As I have said before, the question of whether climate 
change is happening and if the actions of mankind are having an 
effect on its progression is over. While there are a few 
scientists out there that still cast doubt, it can be said that 
the overwhelming opinion in the scientific community is that 
this crisis is very real, mankind is in part responsible, and 
there are actions we can take now to slow and reverse this very 
dangerous trend. However, this hearing is not about if climate 
change is real, this hearing is about the cost of action and 
the cost of inaction.
    As many of our witnesses will also testify to, I believe 
that doing nothing is no longer an option as there are very 
real costs that will happen if the United States continues to 
lag behind other nations as they move forward to address this 
truly global problem. President Obama stated earlier this week 
that the country that figures out how to make cheaper energy 
that is also clean will win the economic competition in the 
future. Regardless of how any member of this committee feels 
regarding the science of global warming, I would hope that 
every member here would agree with the President's statement. I 
don't care if you are joining the climate discussion because 
you feel there is a profound environmental threat or if you are 
joining the climate discussion because you see economic 
advantages for the United States, it is critical that we all 
work to ensure that we position our nation to be the world's 
leader in the production of cheap and clean energy.
    Like the dot-com boom of the 1990s, the energy revolution 
will provide jobs, the trade, and economic growth that our 
citizens deeply desire. It is critical that this committee act 
this year and put our Nation back on a path for the production, 
distribution, and sale of not only cheap energy, but all the 
technology that will be required to produce it.
    With that, I yield back, Mr. Chairman.
    Mr. Markey. I thank the gentleman. The chair recognizes the 
gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Ryan, just put this 
up.
    [Slide shown.]
    This is a Peabody Mine #10 in Kincaid, Illinois, prior to 
the Clean Air Act. It was an efficient operation with a power 
plant just across the street. These are the workers who were 
employed at this mine. They are the faces of the middle class. 
They are the faces of the United Mine Workers. They are the 
faces of the unemployed.
    I attended a rally at the Christian County Fairgrounds, 
which attacked the company for their closure of this mine. The 
real culprit was legislation passed by this government in the 
Clean Air Act. I will fight to keep this from happening to my 
mineworkers again, and I yield back my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Texas, Mr. Gonzalez.
    Mr. Gonzalez. I will waive.
    Mr. Markey. The chair recognizes the gentleman from Utah, 
Mr. Matheson.
    Mr. Matheson. I will waive.
    Mr. Markey. The chair recognizes the gentleman from North 
Carolina, Mr. Butterfield.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this hearing, and thank you for your leadership, not 
only on this committee, but on this very issue that we are 
talking about. You have been talking about it for so long, long 
before I came to this Congress, and I just thank you so much.
    As with most disasters, Mr. Chairman, the effects of 
climate change will be most significantly experienced by low-
income people both in our country and abroad. Any climate 
effect that strains essential resources, such as water, food, 
and shelter is multiplied on poor people who already live on 
tight margins. For this and other reasons, the cost of inaction 
on climate change rises exponentially for the poor of this 
country, as well as those living in developing regions around 
the world. James Lyons testified before the subcommittee last 
year that people living in developing countries are 20 times 
more likely to be affected by climate change disasters. 
Drought, disease, and severe weather events are typically 
exacerbated in these developing areas, as compared to more-
developed regions.
    The consequences of domestic climate change for the poor 
could include chronic illnesses and the loss of property, yes, 
the loss of property and livelihood. As temperatures rise, air 
quality drops and asthma cases rise. Numerous studies have 
shown a clear link between poverty and increased susceptibility 
to asthma, and people of color are three times likelier to 
suffer from asthma-related conditions. Much of my district in 
North Carolina includes low-lying and coastal lands. A recent 
University of Maryland study projected an 18-inch rise in sea 
level by 2080, which would cause over $2.8 billion in property 
losses in just four of my counties. Bertie County, one of my 
poorest counties, would lose an estimated $9 million in 
property. That does not sound like a lot to my friends from 
urban areas but it is indeed in a rural area. Inaction would 
affect their homes, their businesses, and the lives that they 
have built with their families.We must act in this Congress, 
but as we push forward in developing policy that would set 
scientifically-based targets for greenhouse gas reductions, we 
must be sure to remember the needs of low-income people both 
here in this country and around the world.
    Thank you, Mr. Chairman. I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Louisiana, Mr. Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. I appreciate the 
opportunity to discuss the effects of sweeping climate change 
legislation. I certainly look forward to hearing the testimony 
from our panel today.
    I would note that for thousands of years, climate and 
temperature cycles of the Earth have been in effect, and this 
Congress must not hastily pass sweeping climate change 
legislation without regard to its negative economic impact. At 
a time when our economy is struggling and when we must make 
bold efforts to become energy independent for national security 
and other reasons, it is our job to carefully weigh the costs 
and benefits of each proposal we will face before this 
subcommittee. I remain concerned that we have focused too 
little on the effect of sweeping climate change and what it 
would have on our economy as well as the historical record 
throughout our history.
    As Congress considers radical policy changes here in 
Washington, we are already seeing some of the negative effects 
take place by decisions that private firms are making today. 
There is a major steel manufacturing plant in this country that 
is currently making a decision between building a $2 billion 
plant. Right now their choices are between Louisiana, near my 
district, or Brazil. What they have said, according to the CEO 
of the company, imminent U.S. policy changes dealing with 
climate change are negatively affecting their decision to build 
a major plant here in the United States, which would create 700 
good jobs. Those are 700 jobs that because of the decisions 
that are being discussed here, if we make negative policy 
changes that are radical, they would run those 700 jobs out of 
this country and send them to Brazil.
    Becoming more energy efficient is a good thing, but I urge 
caution in proceeding in a radical fashion that could produce 
dire consequences to our economy without yielding any benefits 
to our environment.
    Thank you, and I look forward to hearing from our panel.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentlelady from California, Ms. Harman.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman, and my thanks to you 
and also to the chairman of the full committee, Mr. Waxman, for 
your work on the stimulus package that we will vote on 
tomorrow. There are sections in it on health and energy that 
are absolutely critical and that obviously owe a lot to the 
work of this committee. I just want to say as a Californian how 
much I appreciate the effort to increase the share of FMAP 
payments that will go to counties and cities.
    Mr. Chairman, to paraphrase our new President, leaders must 
be able to do more than one thing at a time. That means fixing 
the economy and beginning to solve, perhaps, the most pressing 
public policy challenge of this generation, global climate 
change. I recognize, and we have just heard it, and that there 
are a few on this committee who still doubt the science of 
climate change and its implications, but I am not one of them. 
The climate is changing more radically and more quickly than we 
once believed and the consequences of inaction will be 
catastrophic.
    I want to acknowledge the work of some of the witnesses 
before us. A few years back, Jim Woolsey helped to arrange a 
simulation in my congressional district called Oil Shock Wave. 
I think he played the President, and I was Secretary of Defense 
and former California Governor Pete Wilson was Secretary of 
State, and whatever firepower we brought to that, we couldn't 
solve the implications of shockingly high oil prices on the 
U.S. economy, and we have actually now a few months back seen 
what happens with that. So I want to thank him for his work on 
that, and as you will hear in a minute, his work on the 
implications on the electric grid and other things of some of 
these issues.
    And as for General Sullivan, you will remember that we had 
a big fight in Congress adding a section to the intelligence 
authorization bill a few years ago to require a national 
intelligence estimate on the effects of climate change on our 
national security. Many people laughed about that. Well, I 
don't think it is a laughing matter, and I think we have 
learned that famine and drought produce the perfect conditions 
for recruiting terrorists, and I worry about that a lot.
    So let me just close by saying if we worry about jobs, let 
us get this right and build the jobs of the future and keep 
America secure. Thank you, Mr. Chairman.
    Mr. Markey. The gentlelady's time has expired. The chair 
recognizes the ranking member of the full committee, the 
gentleman from Texas, for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. It is good to finally 
engage in the debate. Global warming or climate change is 
certainly an issue that we have walked around the edges of in 
this Congress for the last several sessions, and I think it is 
an important issue and I think it is good to have these 
witnesses and the ones that are going to appear after them to 
begin the information-gathering process.
    I am, I don't think it is a surprise, a skeptic that 
mankind is causing the climate to change. I do agree that the 
climate is changing. That is self-evident. I just have a 
problem because I am a registered professional engineer. When I 
look at all the evidence of the past climate change cycles to 
see what is different about this one, that somehow mankind is 
the cause, the supposed expert IPCC models, unless they 
miraculously improved them in the past 3 to 4 months, don't do 
a very good job of even predicting the past. Half the time they 
get the degree of change and the direction wrong. Now, maybe 
they have changed some in the last 6 months and maybe some of 
these witnesses can educate me on that.
    We understand that global warming is a theory and it may 
even be a practical theory, but I am not yet ready to accept 
that it is a theology. Some of the more fervent global warming 
advocates do take it as a theology or a pseudoreligion. When 
you try to debate with them the facts of the case, they get 
very intensely upset.
    Global warming advocates believe that humanity's 
CO<INF>2</INF> emissions harm the earth by raising the global 
temperature, and they say that only draconian action led by the 
United States will save the planet. The U.S. cap-and-trade 
group that testified at the full committee several weeks ago 
supports a proposal that would cut CO<INF>2</INF> emissions by 
80 percent in the United States by the year 2050. Again, I can 
stand to be corrected ,but my understanding, if we cut our 
CO<INF>2</INF> emissions by 80 percent, we are back to levels 
that we last experienced in the United States around World War 
I, when we had about 120 million people in this country and 
over half of those lived on farms, and the per capita income 
was in the hundreds of dollars per person instead of the tens 
of thousand of dollars per person that it is today.
    If we do what the advocates say we should do, the 
econometric models, which I believe are more accurate, almost 
guarantee a 2 to 3 percent GDP negative growth, in other words, 
a contraction of GDP on an annual basis. You want to talk about 
launching another Great Depression; let us do some of the 
things that require that kind of a contraction.
    Instead of heading back to the Bronze Age, I think we 
should look to the future for solutions. I think it is possible 
on a bipartisan basis to do things that actually further the 
science, further the research into carbon capture and 
conversion, accelerate the use of existing technologies like 
nuclear power, some of the alternative energy sources that we 
know are zero emissions, wind power, new hydropower, things 
like that. We can have a bipartisan solution, a bipartisan 
proposal on those kinds of things.
     No poor country values its environment more than it values 
its people's ability to make a living. One of the problems we 
are going to have, it is one thing to ask an industrialized 
society to do with a little bit less, but it is another thing 
entirely to ask an evolving society to not do at all. If you go 
to some of the countries in Africa and Asia, some of the former 
European Soviet Union satellites in eastern Europe and ask them 
to just not have what we have taken for granted in this country 
for the last 50 years, I think we are going to get a rude 
awakening. They are just not going to do it. If the choice is 
wash your clothes in the ditch or put electricity that is 
generated by a coal-fired power plant so that you can actually 
buy a washing machine, most people are going to build a coal-
fired power plant.
    So again, that is why we need to do things like Mr. 
Boucher's bill on CO<INF>2</INF> research for conversion and 
capture and do some of the things that I have already alluded 
to.
    I see that my time is about to--in fact, it has expired, 
Mr. Chairman. I appreciate you giving me that notice. Suffice 
it to say that I am very involved in this debate. I appreciate 
the process where we do the hearings before we move a bill. 
That is somewhat unique in this Congress, and I appreciate you 
doing that. I look forward to the debate.
    Mr. Markey. I thank the gentleman very much. The chair 
recognizes the gentlelady from California, Ms. Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for calling today's 
hearing. I applaud your leadership and vision on this critical 
and pressing issue. I look forward to working with you and with 
all the members on the committee to craft responsible solutions 
to the problem of climate change. I would also like to thank 
today's panelists for sharing their expertise with us.
    Climate change is a problem that demands action and demands 
action now. My hometown of Sacramento is a perfect illustration 
of why we need to solve climate change as soon as possible. In 
Sacramento we live at the confluence of two great rivers. We 
also live at the foot of the Sierra Nevada Mountain range. We 
have learned to manage the winter rains that test our levies 
and we learned to manage the spring snowmelt that flows down 
from the Sierras each year. But global warming threatens to 
upset this finely-tuned balance. This year we are having a 
major drought. In recent years, extreme amounts of rain have 
strained our infrastructure. Behind these changing climatic 
patterns is a constant threat of flooding. Protecting my 
hometown from flooding is my top priority. This makes 
addressing climate change that much more urgent for me. Nearly 
half a million people, 110,000 structures, the capital of the 
State of California and up to $58 billion are at risk from 
flooding in Sacramento.
    Unless we take action now, our way of life in Sacramento 
and California and across the country will be changed forever. 
I look forward to hearing from each of today's witness of how 
we can advance solutions to global warming that keep people 
safe and help us avoid disaster here at home.
    Thank you again for your leadership on this issue, Mr. 
Chairman, and with that I yield back the balance of my time.
    Mr. Markey. The gentlelady's time has expired. The chair 
recognizes the gentleman from Texas, Mr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. I appreciate you 
holding the hearing today titled ``The Climate Crisis: National 
Security, Public Health, and Economic Threats.'' In fact, the 
title kind of evokes what columnist George Will spoke about 
last Sunday: The only thing we have to fear is insufficiency of 
fear.
    If I were to list the top 100 national security threats 
facing our country today and rank them from one to 100, I would 
be hard pressed to put climate change in the top tier, the top 
50, or perhaps even in the top 75. Now, there may be a national 
security threat but so are birds flying about the Hudson River. 
Scaring people into feeling better about paying more for their 
energy consumption under the guise of potential greater 
national security is a hard sell. People in my district know 
that as a Nation we have got greater domestic security concerns 
and, especially now, greater economic concerns to address 
before we try to tackle the weather and beach erosion.
    We simply do not know the future or what technology may 
exist in the future but we do know that the technology that we 
will need to dramatically change the way we deliver and consume 
energy will require a strong and growing economy. Strong and 
growing economies have obligations to protect their national 
security. I would also argue that the needs of challenged 
societies do not hinge on the exploitation of natural 
resources, but rather on the lack of affordable resources, 
given the needs of their people. Strong and growing economies 
have the financial resources to provide additional aid to 
people in need. Strong and growing economies can protect 
themselves more easily and adapt to changes and mitigate the 
effects of natural disasters. Let us ensure that our ability 
and the ability of developing economies to prosper are not put 
at future risk by the way we choose to address the issue of 
human contributions to what we now know as climate change.
    I thank you for the consideration, Mr. Chairman. I will 
yield back the balance of my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Washington State, Mr. Inslee, for 
an opening statement.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chairman.
    I would like to make two points. First, in response to Mr. 
Barton's entreaty that we follow science rather than theology, 
I think all of us have to be willing to accept new science, and 
I want to say that I have been wrong on this issue of global 
warming now for several years. I have been advocating action 
for this and I have been wrong. I based my earlier positions on 
this climate change report of 2007, the physical science basis 
consensus product of a couple thousand of the world's best 
scientists including, I believe Nobel Prize winner Dr. Chu, the 
film, ``An Inconvenient Truth'' and a lot of other things I 
have read. All of those things were wrong. They grossly 
understated the threat that we are facing today. Because during 
the last 12 months we have had an avalanche of information 
scientifically to indicate our previous projections grossly 
understated the pace and depth and scope of this threat.
    While we previously thought the Arctic would be around in 
50 years, it is gone now virtually in the summer. While we 
previously said that glaciers in Glacier National Park would be 
around in decades, they are essentially going much more 
rapidly. While we previously thought ocean acidification would 
take 70 years to make it impossible for coral reefs to exist, 
they are now rapidly approaching that level right now off the 
coast of the State of Washington.
    This is a much deeper problem than we thought it was 12 
months ago and that is why it demands urgent action, and it 
demands action tomorrow, when we vote on the economic recovery 
bill, which is the largest investment in innovation, 
creativity, and job creation in green-collar jobs in American 
history, $90 billion to do exactly what my Republican friends 
say they believe in, which is innovation, and I entreat them to 
vote for the largest investment in innovation at A123 Battery 
Company with lithium ion batteries, at the Ostra solar-
concentrated solar thermal plant, at Magna Drive in Bellevue, 
Washington, at Detroit's GM, where we want to make electric 
cars. I hope they will vote with us tomorrow to innovate our 
way out of this problem. Thank you.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Pennsylvania, Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman, for holding this 
hearing. I believe that it is of the utmost importance to 
protect our environment and our atmosphere. However, we need to 
ensure that our solutions don't create new problems. The 
massive federal regulations that will ensue from an overarching 
broad climate change piece of legislation could dramatically 
hurt national security and our economy. The U.S. military is 
the country's largest consumer of oil, and 90 percent of the 
Federal Government energy cost comes from the military. The 
military has acknowledged the need to decrease their dependency 
on oil and they have taken proactive steps towards this by 
turning to hybrid electric engines, nuclear-powered ships, 
alternative fuels, and geothermal, wind, and solar energy.
    According to a Heritage Foundation analysis, the EPA could 
regulate greenhouse gas emissions from numerous types of 
engines, including those installed in military tanks, trucks, 
helicopters, ships, and aircraft. Therefore, it is imperative 
that greenhouse gas emissions regulations must not hamper our 
Nation's ability to train and equip our troops by placing 
restrictions on our military that will be overly cumbersome.
    In a time of serious economic downturn, we should be 
careful about advocating a regulatory policy that will raise 
the cost of energy and further burden businesses and consumers. 
Instead, we need to make sure our economy is vibrant, and we 
can do this by ensuring there is enough investment capital to 
advance alternative and energy-efficient technologies. I urge 
the committee to consider potential negative effects that 
overly stringent climate change legislation may have on our 
Nation's armed forces and the economy. Now is not the time to 
debilitate the economy or the military's ability to prepare for 
and engage in conflicts around the globe.
    Again, thank you, Mr. Chairman, for the hearing. I look 
forward to hearing the testimony of our witnesses, and I yield 
back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from New Jersey, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Everyone here understands the serious threat that global 
climate change represents to the world. The fourth assessment 
report of the Intergovernmental Panel on Climate Change, IPCC, 
predicted serious risks and damages to species, ecosystems, and 
human infrastructure if action is not taken to reduce 
emissions.
    I want to focus on the public health issues related to 
global warming. First, let me be clear, global warming has very 
real and devastating effects on public health. According to the 
IPCC, climate change contributes to the global burden of 
disease, premature death, and other adverse health impacts. 
Furthermore, the World Health Organization has stated that 
climate change is a significant and emerging threat to public 
health. The Organization estimates that changes in earth's 
climate may have caused at least 5 million cases of illness and 
more than 150,000 deaths in the year 2000.
    As a member from New Jersey, air quality issues are a 
particular concern for me. The EPA designates New Jersey as a 
nonattainment area, meaning New Jersey has ozone levels higher 
than allowed under the EPA's 8-Hour Ozone National Air Quality 
Standard. These higher concentrations of ground ozone cause 
serious consequences for people with cardiorespiratory 
problems. Reducing global warming pollution will substantially 
reduce particulate matter, which would significantly benefit 
people living in nonattainment areas.
    The goal of this hearing is to determine how best to manage 
the effects of global warming and how to craft an aggressive 
policy to lower greenhouse gas emissions. Through Chairman 
Markey's leadership in the Select Committee on Global Warming, 
we know we need aggressive action. Congress must pass 
legislation that will set the necessary short- and long-term 
emission targets that are certain and enforceable. We can't 
afford to wait another year to act.
    Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. Thank you. I will waive an opening.
    Mr. Markey. The gentleman waives. The chair recognizes the 
gentlelady from Wisconsin, Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman.
    We know that climate change comes with a very large price 
tag, and the costs are not just measured in dollars. Our 
emissions have put our environment, social structure, and 
national security at risk, and if we fail to act 
comprehensively, the impacts will be felt through the loss of 
human life, health, species extinction, and loss of ecosystems 
and social conflict.
    As Members of Congress, especially as Members of the 
people's House, we are generally prone to crafting and passing 
legislation that provides immediate or near-term relief to our 
constituents just as we are doing with the recovery package 
this week. However, it is a seeming challenge for us to enact 
consequential legislation that may raise costs in the near term 
with benefits that aren't reaped for perhaps a generation, 
maybe more than a generation to come, legislation that will 
have benefits that some of us won't even live to see. Yet this 
is exactly the predicament that we now find ourselves in. Do we 
make the investment now to avoid the worst impacts of climate 
change? According to Lord Nicholas Stern, who this subcommittee 
heard from less than a year ago, the cost of acting today is 
about 1 percent of global GDP each year. However, if we wait 
and leave this issue to a future generation and watch the costs 
and risks rise, the cost of inaction rises up to 20 percent of 
global GDP each year. I am of the opinion that the risks are 
too great for us to fail to act in the very near term.
    I have seen firsthand the intense rain, flooding and 
devastation that people in my district and across the upper 
Midwest area experiencing as the result of intense rainfall 
last year. We lost homes, businesses, and farmland, not to 
mention millions of dollars in lost productivity. I can only 
hope that we will do everything in our power to ensure that 
these 100-year events do not become the norm in the future.
    Mr. Chairman, the scientific community has come together on 
this issue. It is high time that we do. I yield back the 
balance of my time.
    Mr. Markey. The gentlelady's time has expired. The chair 
recognizes the gentleman from Vermont, Mr. Welch.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Mr. Welch. Thank you, Mr. Chairman, and thank you for this 
hearing.
    For decades the issue of climate change has focused on a 
debate about science, but today I think that question is 
closed. Overwhelming scientific research shows that global 
warming is real, it is urgent, and it requires our immediate 
action. Last month we heard testimony from our country's 
largest corporations, and it really goes to the heart of what 
some of my colleagues on the other side of the aisle have been 
saying. We have to focus on economic consequences. The 
universal testimony, undivided, united opinion was that the 
cost of inaction would be dire to the economy, and today we 
will hear further that addressing climate change is critical 
for maintaining national security and protecting public health.
    Addressing the challenge presents us with an opportunity, 
and that is really where we have to decide whether we are going 
to face this confidently the way America does when it is 
successful or defensively. Addressing this challenge is 
critical to all of us. We know it in Vermont. Even as a small 
State, we have realized that we can and must make a 
contribution to a sustainable future, and in fact, we are 
seeing that some of our best jobs are created by companies that 
are engaging in this battle directly and energetically. The 
test of leadership for this Congress is to face directly the 
realities that are difficult, and as my colleague from 
Wisconsin said, delay is going to cost us more, not less. We 
must tackle this challenge squarely and directly as the 
confident Nation that we are.
    Thank you. I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from New York, Mr. Engel.

  OPENING STATEMENT OF HON. ELIOT ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing this morning.
    Climate change is real. We all know the science is no 
longer a debate. It is one of the greatest environmental, 
economic, and international security threats of our time. To 
protect our Nation and our environment, we must decrease our 
consumption of oil and increase our ability to produce clean 
biofuels here at home. We made progress toward these goals last 
Congress by enacting the Energy Independence and Security Act. 
That legislation made groundbreaking steps to increase CAFE 
standards for our vehicles, strengthen energy efficiency for a 
wide range of products, and promote the use of more-affordable 
American biofuels. I am continuing to work to advance those 
goals with my Open Fuel Standards Act, which would require that 
50 percent of new cars sold in the United States by 2012 are 
flex fuel and 80 percent by 2015, meaning that they are able to 
run on any combination of ethanol, methanol, or gasoline.
    But it is not just the transportation sector that 
contributes to climate change. It is much bigger than that, and 
that is why we are gathered here today. We must implement a cap 
on carbon emissions. We must work together as scientist, 
entrepreneurs, and Americans, simply Americans, to deploy the 
next generation of energy that will allow us to build the next 
generation's economy.
    I look forward to today's hearing, and I thank you, Mr. 
Chairman, and I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from California, Mr. McNerney.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chairman. I have had the 
privilege of serving on your Select Committee on Global 
Warming, and I have seen some very incredible testimony, some 
stunning testimony including some from the witnesses that are 
in front of us today. I want to thank the witnesses for your 
hard work, for coming over here today, for facing this panel. I 
have been in business. I have seen some incredible technology 
out there. I know we can do this, and, you know, we have heard 
plenty about the choice between the economy and moving forward 
in reducing our electronics, that this is our going to hurt our 
economy. That is a false choice. We have the technology, we 
have the wherewithal in the United States of America to do 
this, and it is going to create jobs, and it is going to make 
us have a strong economy.
    I look forward to working with members of this committee 
and hearing your testimony and we will end this dependence on 
oil and we will create a great green economy.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentlelady from California, Ms. Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Capps. Thank you, Mr. Chairman, for holding this 
hearing. I very much look forward to our esteemed witnesses' 
testimony.
    The climate crisis is upon us. The earth is warming and the 
threat is real. Our economy, our national security and the 
public's health and well-being are all at risk. Global warming 
will obviously affect our economy. According to the well-
respected Stern Review, every dollar we spend to reduce 
greenhouse gases now will save us $5 later. Already the rising 
sea level has left residents of a small village in northwest 
Alaska unable to fish, unable to build safe homes, and that is 
just one example.
    In my home State of California, a study by the economists 
from the University of California Berkley found that $2.5 
trillion worth of real estate assets are vulnerable to flooding 
and sea rise. In addition, $500 billion of transportation 
facilities are at risk as a result of rising sea levels, 
including five major California airports that sit on the coast. 
One of these airports is the Santa Barbara Airport that I fly 
in and out of each week.
    The climate crisis also threatens our national security. 
Policy analysts have issued several reports finding that a 
failure to act will have dire consequences triggering 
humanitarian disasters and political instability in what are 
already some of our most fragile regions such as Africa and the 
Middle East.
    Finally, as a public health nurse, as the grandmother of a 
child with asthma, I am gravely concerned about the effect of 
global warming on the public's health. For example, rising 
temperatures increase ozone smog, which worsens the condition 
of people suffering from respiratory diseases like asthma. 
Increased levels of carbon dioxide may prolong the pollen 
season, intensifying the suffering of the 36 million American 
plagued with seasonal allergies. Increased temperatures have 
also caused extreme heat waves with tragic consequences. In 
July 2006, an extreme heat wave in California caused at least 
140 deaths. Our sources of clean drinking water are also at 
risk, especially again in California. Many of my constituents 
rely on the Colorado River for a portion of their drinking 
water. The river faces long-term drought due to global warming 
and it is estimated that it would take 15 to 20 years of normal 
rainfall to refill the river's main reservoirs.
    We need to address this situation. I am thankful that this 
process is beginning today.
    Mr. Markey. The gentlelady's time has expired. All opening 
statements by members of the subcommittee have been completed. 
I note that a member of the full committee, Ms. Christensen 
from the Virgin Islands, is here, and if you would like by 
unanimous consent, is there a 1-minute statement you would like 
to make at this time?

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Mr. Chairman and Ranking 
Member, and thank you for allowing me to sit in on the hearing, 
and I would like to associate myself with the remarks of my 
colleague, Ms. Capps from California, but I also wanted to 
point out that while climate change is an important issue for 
everyone everywhere, it is especially critical to the 
Caribbean, where my district sits, and despite the fact that we 
contribute relatively little to greenhouse gases, we are likely 
to face the severest of impacts, and also the reports have 
shown that the cost of inaction for us is unsustainable; so I 
look forward to the testimony of our witnesses.
    Mr. Markey. I thank the gentlelady, and we thank her for 
visiting with us today.
    That completes all opening statements. We will now turn to 
our very distinguished panel, and I will begin by recognizing 
our first witness, who is Dr. Daniel Schrag. He is the Director 
of the Center for the Environment and the director of the 
Laboratory for Geochemical Oceanography at Harvard University. 
He is a former member of the board of reviewing editors for 
Science magazine, and a MacArthur fellow, a winner of that 
genius award. We look forward to your testimony, Dr. Schrag. 
Whenever you are ready, please begin.

  STATEMENT OF DANIEL SCHRAG, DIRECTOR OF THE CENTER FOR THE 
    ENVIRONMENT, DIRECTOR OF THE LABORATORY FOR GEOCHEMICAL 
                OCEANOGRAPHY, HARVARD UNIVERSITY

    Mr. Schrag. Thank you, Mr. Chairman. As an earth scientist 
who studies how the climate has changed in the past, I believe 
the geologic data suggests that most scientific assessments of 
global warming err on the conservative side. This has led to a 
misunderstanding of the risk of adverse impacts of climate 
change. I will give a few examples today.
    [Slide shown.]
    To quickly remind the committee, and if you could click 
once on the slide, humans are changing the amount of carbon 
dioxide in the atmosphere, mostly from burning coal, oil, and 
gas. The current level, more than 380 parts per million, is 
higher than it has been for at least the last 650,000 years and 
perhaps for tens of millions of years. By the middle of this 
century, we will be at 500 parts per million. The issue before 
us is not whether we will get to 500, but whether we stop at 
500 or go to 1,000. It is an uncontrolled experiment filled 
with uncertainty, and just like uncertainty in financial 
markets, it is a reason for grave concern.
    Observations and models tell us that climate change in this 
century may be dramatic, perhaps even catastrophic. We tend to 
focus on the more extreme and more adverse consequences, not 
because we are aware of any beneficial outcomes, but simply 
because global warming is like an insurance problem. We need to 
understand the probability of the most undesirable outcomes to 
best gauge what steps to take to avoid them. I will give two 
examples of how conservative the scientific community can be. 
Next slide.
    [Slide shown.]
    First, consider the sea ice distribution in the Arctic in 
September of 2007. Previous studies, including the IPCC, 
predicted that the Arctic icecap might disappear in the summer 
toward the end of the century, certainly no earlier than 2050. 
Then in 2007, there was a 20 percent decline in aerial extent 
of sea ice below the previous record, which was 2005. New 
studies now predict that the Arctic may be ice-free as soon as 
the middle of the next decade, a milestone that will 
drastically change the Arctic climate, will change world 
commerce, and will enhance the melting of land ice on Greenland 
because the Arctic sea ice keeps Greenland cold.
    [Slide shown.]
    A second example, next slide, is the IPCC's discussion of 
future sea level rise. The IPCC predicts 10 to 25 inches based 
on different emission scenarios of overall sea level rise, but 
most of that is actually due to the thermal expansion of 
seawater. Only 2 inches over the century are attributed to 
melting of Greenland, even though Greenland ice has about 23 
feet of potential sea level rise stored on it. The projection 
is an extrapolation of the current rates of warming, assuming 
that the current melting of Greenland will go on and stay the 
same throughout the century with no change, a highly unlikely 
outcome. It illustrates the basic problem. When pushed, the 
scientific community often falls back on an answer that can be 
defended with confidence, even though it may not provide you, 
the policymakers, with an accurate picture of the risk 
involved.
    Why are scientists so conservative in their assessment of 
climate change? A major reason is that the scientific method 
teaches us to be conservative and to state things only when we 
know them with high confidence, such as 95 percent confidence 
interval. This is in striking contrast to questions of national 
security, as illustrated by the 1 percent doctrine articulated 
by former Vice President Cheney. In Cheney's formulation, if a 
probability of a high-consequence event such as nuclear 
terrorist attack is only 1 percent, then we should treat it as 
an absolute certainty and act accordingly. It is really just an 
extension of the precautionary principle. But climate change 
may have just as serious implications for national security. 
Consider the advance of the timing of mountain snowmelt as the 
earth warms.
    [Slide shown.]
    In the western United States, next slide, please, this 
could mean as much as 60 to 80 days earlier snowmelt than today 
by the end of the century, and again, this could be 
conservative. If the river draining the Sierra Nevada in 
California, for example, were to run dry by mid-summer, then 
California agriculture would be impossible, and this is mild 
compared with other parts of the world. The great rivers that 
drain the Himalayas and Tibetan plateau, the Indus, the Ganges, 
the Mekong, the Yangtze, and the Yellow all depend on melting 
snow and ice for a large fraction of their water. How might the 
decline of the Indus, for example, affect the political 
stability of Pakistan and the support for Islamic terrorism? 
How will China and India deal with reduced water resources, and 
will it lead to more regional conflict? The risk of serious 
water stress, not just in Asia but around the world, 
contributing to failed states and major security disasters is 
well above a 1 percent threshold for serious action and 
illustrates how global warming poses an enormous challenge to 
peace and stability around the world.
    A final point I would like to make before this committee is 
that many steps to mitigate climate change will also result in 
an increase in our national security. Energy security is at the 
heart of many issues of security around the world including 
funding our enemies or the strengthening influence that Russia 
has over Europe, because of dependence on natural gas imports. 
Most new technologies that can reduce carbon emissions will 
also reduce our dependence on foreign sources of fossil fuels. 
Energy efficiency is the most important strategy as it will 
likely result in significant savings to our economy. 
Investments in renewable energy resources in appropriate 
locations, as well as carbon capture and storage for coal-fired 
power plants and other large stationary sources of 
CO<INF>2</INF>, will reduce our need to import greater amounts 
of liquid natural gas in the future. And our dependence on 
foreign oil will only be reduce in the long run if we can 
develop clean, domestic alternatives such as synthetic fuels 
produced from blending biomass and coal with carbon 
sequestration. Through such steps we can lead the rest of the 
world down a path toward greater prosperity, stability, and 
security. If we fail in this task, we risk threatening the 
stability of our climate, our society and our entire planet. 
Thank you.
    [The prepared statement of Mr. Schrag follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Markey. Thank you, Professor Schrag, very much.
    Our second witness is General Gordon Sullivan, who is the 
President and Chief Operating Officer of the Association of the 
United States Army, and a former chief of staff of the U.S. 
Army. He headed the Military Advisory Board for the Center for 
Naval Analysis Corporation's report on national security and 
the threats of climate change. We are honored to have you with 
us, General Sullivan. Please proceed when you are ready to go.

 STATEMENT OF GENERAL GORDON R. SULLIVAN (RET.), PRESIDENT AND 
 CHIEF OPERATING OFFICER, ASSOCIATION OF THE UNITED STATES ARMY

    General Sullivan. Thank you, Mr. Chairman and Ranking 
Member.
    Two years ago I appeared before the first meeting of the 
Select Committee on Energy Independence and Global Warming in 
my capacity as the chairman of the Military Advisory Board for 
CNA reporting on national security and the threat of global 
climate change. The advisory board consisted of three- and 
four-star flag and general officers from all four services. Mr. 
Chairman, I request that this report be once again entered for 
the record.
    Mr. Markey. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    General Sullivan. Our charge was to learn as much as we 
could in a relatively short period of time about the emerging 
phenomenon of global climate change using our experience and 
expertise as military leaders to process our learning through a 
national security lens. In other words, we were asked, what are 
the national security implications of global climate change.
    In summary, what I reported at that time is the following. 
First, global climate change is a serious threat to our 
national security. Second, climate change will be what we call 
a threat multiplier. In many areas of the world that will be 
hardest hit by climate change, impacts are already being 
stressed by lack of water, lack of food and political and 
social unrest. Global climate change will only magnify those 
threats. Third, projected climate change will add to tensions 
even in stable regions of the world, and lastly, climate 
change, national security and energy dependence are a related 
set of global challenges.
    In the 2 years since I appeared before this committee, we 
have seen no evidence to contradict those findings. In fact, we 
have only seen the findings confirmed and reinforced.
    In concurrence with one of our recommendations, a National 
Intelligence Assessment on global climate change was conducted 
by the National Intelligence Council. The NIA remains 
classified but public accounts of the assessment suggest very 
strong agreement with our findings. Since our report, the 
scientific community including the Intergovernmental Panel on 
Climate Change has also continued their important work in 
examining climate change. What we have learned from their most 
recent work is that climate change is occurring at a much 
faster pace than the scientists previously thought it could. 
The Arctic is a case in point. Two years ago scientists were 
reporting as has been stated here twice already that the Arctic 
would be free from ice within about 40 years. Now they are 
telling us that it will happen in a couple of years. As a 
matter of fact, the northern part of the Bering Sea is now free 
of ice. The acceleration of the changes in the Arctic is 
stunning.
    The trends of climatological data and concrete evidence of 
change continue to suggest the globe is changing in profound 
ways. I am not a scientist, nor are most of my colleagues on 
the Military Advisory Board. I would characterize us as 
military professionals accustomed to making decisions during 
times with ambiguous information with little concrete knowledge 
of the enemy intent. We base our decision on trends, 
experience, and judgment. We know that demanding 100 percent 
certainty during a crisis could be catastrophic and disastrous.
    And so we ask, quo vadis? Where do we go? I ask it in Latin 
because I believe it is a very fundamental question for the 
United States of America. Where we go will be a reflection of 
how we feel about the world in which we live. I feel right now 
we are drifting--excuse the metaphor--in uncharted waters. This 
is not the time to wait for 100 percent certainty. The trends 
are not good.
    What can guide us in choosing our path is up to you. I 
believe there is a relationship between energy dependence, 
climate change, economic revitalization, and our national 
security. These are deeply related issues. When we consider 
investments in one, we must consider the impact on the whole.
    My personal view is that the United States of America is 
obliged to play a leadership role in this area. Leadership by 
the United States will be key. The best opportunity for us to 
demonstrate our global leadership on this issue is in 
Copenhagen, and I do believe we must take bold and swift steps 
even here at home to gain the credibility necessary to 
participate in those discussions with credibility.
    We must show leadership in developing energy alternatives 
that reduce our need for fossil fuels.
    Thank you, Mr. Chairman.
    [The prepared statement of Gen. Sullivan follows:]

          Statement of General Gordon R. Sullivan, USA (Ret.)

    Chairman Markey, members of the Committee, thank you for 
the invitation to offer my testimony today. My last duty 
position was as Army Chief of Staff. I retired from active 
service in 1995 and am now the President of the Association of 
the United States Army.
    Two years ago, I appeared at the first meeting of the 
Select Committee on Energy Independence and Global Warming in 
my capacity as Chairman of the Military Advisory Board to the 
CNA report on ``National Security and the Threat of Climate 
Change.'' The Military Advisory Board consisted of 3- and 4- 
star flag and general officers from all four Services. Mr. 
Chairman, I request that this report be entered for the record.
    Our charge was to learn as much as we could in a relatively 
short period about the emerging phenomenon of global climate 
change using our experience as military leaders to process our 
learning through a National Security lens. In other words, what 
are the national security implications of climate change?
    In summary, what I reported then was that:
     First, climate change is a serious threat to our national 
security.
     Second, climate change will be what we called a ``threat 
multiplier''. Many areas of the world that will be the hardest 
hit by climate change impacts are already being stressed by 
lack of water, lack of food, and political and social unrest. 
Adding climate change to this mix will only serve to exacerbate 
the existing instabilities.
     Third, projected climate change will add to tensions even 
in stable regions of the world.
     And fourth, that climate change, national security and 
energy dependence are a related set of global challenges.
    In the 2 years since I appeared before the Committee, we've 
seen no evidence to contradict those findings. In fact, we've 
only seen them reinforced.
    In concurrence with one of our recommendations, a National 
Intelligence Assessment on global climate change was conducted 
by the National Intelligence Council. The NIA remains 
classified, but public accounts of the assessment suggest very 
strong agreement with our findings.
    Since our report, the scientific community, including the 
Intergovernmental Panel on Climate Change, has also continued 
their important work in examining climate change. What we have 
learned from their most recent work is that climate change is 
occurring at a much faster pace than the scientists previously 
thought it could. The Arctic is a case-in-point. Two years ago, 
scientists were reporting that the Arctic could be ice-free by 
2040. Now, the scientists are telling us that it could happen 
within just a few years. The acceleration of the changes in the 
Arctic is stunning.
    The trends of climatological data and concrete evidence of 
change continue to suggest the globe is changing in profound 
ways. I am not a scientist, nor are most of my colleagues on 
the Military Advisory Board. I would categorize us as military 
professionals accustomed to making decisions during times of 
uncertainty. We were trained to make decisions in situations 
defined by ambiguous information and little concrete knowledge 
of the enemy intent. We based our decisions on trends, 
experience, and judgment. We know that demanding 100% certainty 
during a crisis could be disastrous.
    And so we ask: Quo vadis? Where do we go? I ask it in Latin 
because I mean to imply that it's a fundamental question. Where 
we go will be a reflection of our values. Right now, we are 
drifting off into uncharted waters. This is not the time to 
either wait for 100% certainty or simply hope our environment 
is not changing.
    What can guide us in choosing our path is an understanding 
of the interrelated nature of these issues. Energy dependence. 
Climate change. Economic Revitalization. National Security. 
These are deeply related issues. As we consider investments in 
one, we must consider their impact on the whole.
    My personal view is that the US is obliged to play a 
leadership role: Leadership by the US is key. The best 
opportunity for the US to demonstrate our global leadership is 
in Copenhagen, but I do believe we must take bold and swift 
steps here at home if we're to have the credibility necessary 
to lead in those important negotiations.
    We must also show leadership on developing energy 
alternatives that reduce our reliance on fossil fuels from 
unstable regions of the world, reduce our energy consumption, 
and improve our nation's energy posture. That is the subject of 
the Military Advisory Board's next report on energy security 
and America's defense. I am hopeful that this report, which we 
will release soon, will make an important contribution to the 
national effort to retool America by advancing low carbon 
energy solutions that improve our nation's energy and national 
security posture.
    I'll close with another reminder of something I said two 
years ago. I reflected on decades of service - working along 
side many great public servants who worked hard and risked 
their lives to protect our country. And I had begun to see that 
our country is now being threatened by a different kind of 
enemy. I'm here today as a retired military leader, making a 
case for you to consider climate change and energy dependence 
as national security threats. But I don't want to skate past 
this last point. What this country looks like, what it feels 
like to live here, will also be changed. Tapping sugar maples 
in New England winters. Fishing off the Cape. Those were images 
I held close when stationed overseas. Those images were 
important to a solider. I hope they're important to Members of 
Congress.
                              ----------                              

    Mr. Markey. We thank you, General.
    Our next witness is Mr. James Woolsey. Mr. Woolsey is a 
venture partner with VantagePoint Venture Partners in San 
Bruno, California, and serves on the National Commission on 
Energy Policy. He is also a senior executive advisor for Booz 
Allen Hamilton. He has served presidential appointments in both 
Democrat and Republican administrations, most recently as 
Director of the Central Intelligence Agency. Thank you, Mr. 
Woolsey, for being with us here today. Whenever you are ready, 
please begin.

 STATEMENT OF R. JAMES WOOLSEY, VENTURE PARTNER, VANTAGEPOINT 
 VENTURE PARTNERS, FORMER DIRECTOR, CENTRAL INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman. It is an honor to be 
with you.
    The subject of the hearing suggests that energy in the 
current environment needs to be secure, needs to be clean, and 
needs to be affordable, and in moving in that direction, we 
have to keep in mind, I think, two different types of threats 
to our security. One is what a colleague of mine calls 
malevolent as distinguished from malignant. A malevolent threat 
is one that someone plans, and with respect to our energy 
infrastructure, probably the two most dangerous are dependence 
on oil from the Middle East and the results of four funding 
both sides of the War on Terror and on and on, a set of issues 
I don't need to go into detail with this committee.
    But the electricity grid is another extraordinarily 
vulnerable part of our system. A National Academy of Sciences 
study of 2002, which I participated in, said simultaneous 
attacks on a few critical components of the grid could result 
in a widespread and extended blackout. Conceivably, they could 
also cause the grid to collapse with cascading failure in 
equipment far from the attacks, leading to an even larger long-
term blackout, and may I say, Mr. Chairman, if we had a serious 
attack on the grid either by way of cyber attacks or by way of 
physical attacks, and we lost a chunk of it, we are not back in 
the 1970s in the pre-Internet Web days; we are back in the 
1870s in the pre-electricity era. That set of issues has not 
been successfully addressed in the last 7 years since we wrote 
for the National Academy of Sciences.
    If we look at malignant threats, threats no one is trying 
to create but which come about because of the complexity of 
systems, there are a number, and one, I think, of the most 
serious is certainly climate change. That issue is dealt with 
in pages 2 through 9 of the attached chapter of the book which 
the staff has kindly allowed me to attach to my testimony, and 
I will simply say that I believe Professor Schrag summarized 
those issues extremely well. We have a habit from the non-
scientific community of looking at change as if it is linear, 
whereas, in fact, some of the most troubling changes can be 
exponential and particularly in this climate area, it is 
difficult for us to get our minds around it.
    The other is that we don't need to believe that all of 
climate change is anthropogenic, is caused by human beings, in 
order to believe that it is a serious problem. The world may 
well be in the middle of a several-thousand-year warming trend 
now for historic reasons. The world's climate has changed many 
times. But we are certainly doing something quite serious to it 
by doubling, tripling and more than tripling the amount of 
CO<INF>2</INF> in the atmosphere. I think that one needs to 
keep in mind that one needs to remember both these malignant 
and these malevolent problems as one makes progress. We don't 
want, for example, to deal with climate change in a way that 
enhances the vulnerability of the electricity grid.
    As a device to illustrate this, the last seven pages or so 
of the attached chapter of mine is a dialog between a tree 
hugger and a hawk. My tree hugger is the ghost of John Muir and 
my hawk is the ghost of George S. Patton. Muir is concerned 
only about carbon. Patton is concerned only about terrorism. 
What they keep finding is that on many proposals they are able 
to agree on what to do even though they are not doing it for 
the same reasons. For example, energy efficiency in buildings, 
so look at what Walmart has been able to do. Patton and Muir 
agree on that. Combined heat and power, generating huge amounts 
of electricity from waste heat--Denmark gets a third of its 
electricity from waste heat. We get a tiny percent, just 
because of policies by the public utility commissions. Patton 
and Muir agree on that. Distributed generation encouraged by 
such steps as the German feed-in tariff, which Congressman 
Inslee and others are working on here, can help us move toward 
renewables substantially. Decoupling revenues from earnings for 
electric utilities, as California did 20-plus years ago and a 
few States have followed since, can add a substantial set of 
incentives toward energy efficiency. Moving toward flexible 
fuel vehicles, as Congressman Engel has suggested, as Brazil 
has done, making the fuels out of cellulosic and waste 
feedstocks and to some extent turning toward electricity as in 
plug-in hybrids and electric vehicles, all of these matters, 
Patton and Muir in my construct find great common cause in. 
Interestingly enough, Muir is more open to adding large power 
plants either from renewables or from coal with carbon capture 
and sequestration, assuming it is successful, or from nuclear 
than is Patton because Patton says I don't want to add to the 
electricity grid. He says the electricity grid is much more 
vulnerable than the Maginot Line. The Maginot Line could at 
least be defended from one direction. The way we are going 
about it now, the grid can't be defended at all.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Woolsey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Markey. Thank you, Mr. Woolsey, very, very much.
    Our next witness is Dr. Kristie Ebi, an independent 
consultant specializing in impacts of and adaptation to climate 
change. She is a lead author of both the human health chapter 
of the United Nations' Intergovernmental Panel on Climate 
Change's Fourth Assessment Report and for the United States 
Climate Change Science Program's Synthesis Assessment Product 
on the effects of the global change on human health and welfare 
and human systems. We thank you, Dr. Ebi, for being here. 
Whenever you are comfortable, please begin.

  STATEMENT OF KRISTIE L. EBI, PUBLIC HEALTH CONSULTANT, LEAD 
  AUTHOR, PUBLIC HEALTH CHAPTER OF THE 2007 INTERGOVERNMENTAL 
       PANEL ON CLIMATE CHANGE, FOURTH ASSESSMENT REPORT

    Ms. Ebi. Thank you very, Mr. Chairman. I appreciate the 
opportunity to talk with all the members here on the 
Subcommittee on Energy and the Environment.
    Climate change poses current and future risks for U.S. 
citizens. Although data are limited, injuries, illnesses, and 
death due to climate change may already be occurring with the 
magnitude and extent of adverse health impacts expected to 
increase with additional climate change. The risks include 
greater numbers of preventable illnesses and deaths due to 
increases in the frequency, intensity, and length of heat waves 
with the greatest risk among older adults, those with chronic 
medical conditions, infants, children, pregnant women, outdoor 
workers, and the poor. Climate change is projected to increase 
heat-related mortality several fold, increases in the frequency 
and intensity of floods, droughts, wildfires, and windstorms 
with the risk highest among the poor, pregnant women, those 
with chronic medical conditions and those with mobility and 
cognitive constraints. Projecting additional health burdens is 
difficult because extreme weather events, by definition, are 
rare. However, the impacts can be large for single events, 
higher concentrations of ground-level ozone with the highest 
risk among asthmatics and those with chronic heart or lung 
disease, diabetics, athletes, and outdoor workers.
    Without taking into account possible changes in the 
precursors required for ozone formation, ozone-related morality 
is projected to increase at least 4 percent by 2050 in the New 
York area alone. Ozone-related morbidity also would be expected 
to increase, including more asthma attacks among susceptible 
individuals. Certain food- and waterborne diseases with the 
highest risks among older adults, infants, and those who are 
immunocompromised. The number of cases of salmonella, which has 
caused several recent foodborne outbreaks, increases with 
ambient temperature. Possible changes in the geographic range 
and incidence of waterborne and zoonotic diseases. Reports are 
appearing of infectious disease outbreaks in areas that 
previously have been considered too cold for their 
transmission.
    Other health impacts also may increase. For example, there 
are anecdotal reports of increases in suicide rates among 
native Alaskans associated with the loss of culture, lands, and 
livelihoods because of melting permafrost, loss of sea ice, and 
other changes due to climate change. The magnitude and extent 
of these impacts will vary significantly across regions, 
requiring understanding of the local factors that interact with 
climate change to increase the health risks. Demographic trends 
such as an older and larger U.S. population will increase 
overall vulnerability. In addition, the United States may be at 
risk from climate-related diseases and disasters that occur 
outside our borders. The unprecedented nature of climate change 
may bring unanticipated consequences for public health. The 
current and projected health impacts of climate change are 
significantly larger in low-income countries, challenging their 
ability to achieve the millennium development goals.
    Adaptation and mitigation are equally important for 
addressing these health risks. Neither is sufficient. Focusing 
only on mitigation will leave communities inadequately prepared 
for the changes expected in the short term and focusing only on 
adaptation will increase the amount of future climate change to 
which communities will need to adapt. The United States has 
well-developed public health infrastructure and environmental 
regulatory programs that if maintained would moderate the risks 
of climate change. However, there are limits to the degree to 
which adaptation can reduce these health impacts. Some low-
income countries are struggling to adapt to the climate change 
impacts they are experiencing now. As we heard, that does 
increase our national security threats.
    Actions that lead to greenhouse gas emissions reductions 
can have significant positive impacts on human health. For 
example, in the year 2020, thousands of premature deaths and 
tens of thousands of asthma-related emergency room visits could 
be prevented from the implementation of a range of activities 
that reduce fine particulate matter concentrations associated 
with carbon dioxide emissions. In addition to saving lives, the 
associated economic benefits would range from $6 billion to $14 
billion, and that is in 1 year.
    Thank you very much.
    [The prepared statement of Ms. Ebi follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Markey. Thank you, Dr. Ebi. Just for the members' 
information, the House is in recess subject to the call of the 
chair, so we are going to have a good stretch here in order to 
the listen to the witnesses and to cross-examine them.
    Our next witness is Dr. Frank Ackerman, an economist who 
has written extensively on environmental economics and climate 
change. He is the senior economist at the Stockholm 
Environmental Institute, the U.S. Center as well as a senior 
research fellow at the Global Development and Environmental 
Institute at Tufts University. We welcome you, Dr. Ackerman. 
Whenever you are ready, please begin.

   STATEMENT OF FRANK ACKERMAN, SENIOR ECONOMIST, STOCKHOLM 
      ENVIRONMENT INSTITUTE U.S. CENTER, TUFTS UNIVERSITY

    Mr. Ackerman. Thank you for inviting my testimony.
    As several people have said already today, the debate has 
largely shifted from science to economics. Climate change is 
real. It is caused by human activity. It is going to be 
increasingly bad for us. The question now before us is, can we 
afford to do anything about it. As a group of prominent 
economists including several Nobel laureates said, the most 
expensive thing we can do is nothing. There is a growing 
recognition in the economics profession of the costs of doing 
nothing. The Stern Review sponsored by the British government 
was a major step forward in understanding that. As has been 
mentioned, the Stern estimate of the cost of doing nothing 
ranged depending on how you understand the damages from 5 
percent to 20 percent of world output compared to the cost of 
solving the problem, eliminating most of those impacts which 
Stern estimated at 1 percent of world output for some decades. 
There are many studies of local and regional impacts of climate 
change, varied impacts on different ecosystems, different 
climate regions within the United States. There is an excellent 
study by Matias Ruth of the University of Maryland reviewing a 
lot of these.
    My research, which is described in my written testimony, 
was in response to requests for a total dollar estimate for the 
costs of inaction for the United States. We did one study of 
the United States and a study looking more in depth at Florida. 
We found that just a few categories of damages would amount to 
1.5 percent of U.S. income by the end of this century. For 
Florida, which is much more in harm's way, four categories of 
damages could amount to as much as 5 percent of the State 
income by the end of the century. The categories that we looked 
are hurricane damages, the effects of sea level rise solely on 
residential real estate, not on all the properties in the 
State, cost to the electrical system of the changes in demand, 
costs of more expensive and difficult water supply for the 
United States. For Florida, we were not able to produce a 
similar water estimate but we estimated the costs of losses to 
the State's very important tourism industry.
    Now, I would emphasize that these numbers, while they are 
larger than the 1 percent estimate of the costs of action, they 
are partial estimates of the costs of inaction. There is no 
such thing as a total dollar estimate for the costs of 
inaction. Lives will be lost to climate change if we do nothing 
about it. There is no meaningful way to put a dollar cost on 
those but you can't forget it. The costs of Hurricane Katrina 
were not just property losses, there were also more than 1,000 
people who died there. Damages to nature and extinction of 
species, likewise, have no meaningful price. Turning to 
economic categories, we did not estimate agricultural losses 
except to the extent they were included in water losses. We 
didn't estimate wildfires and forest die-off costs or the costs 
of floods in the Midwest and California and elsewhere. We 
didn't look at the cost of infrastructure along the coasts 
other than the cost to residential real estate, and a very 
important point, which has come out in the economics literature 
lately, is the importance of looking at worst-case risks rather 
than averages. Climate change will get worse on average, and 
the worst-case risks are indeed ominous. The risks of an abrupt 
discontinuity climate catastrophe has to be taken seriously. 
When people buy insurance, they buy insurance against worst 
cases, not average. On average you don't need fire insurance. 
On average you have 99 percent confidence that you don't need 
fire insurance. You can live a richer life if you cancel the 
fire insurance. Not taking seriously the worst-case risks the 
same way that we do when we buy fire insurance is taking a huge 
gamble. The future is only going to happen once. If we were 
lucky, we wouldn't need insurance but that is not the way 
anybody thinks about these risks in their ordinary life.
    So we concluded that climate change will be bad for the 
economy. Just a few categories of economic damages for the 
United States as a whole exceed the cost of action. For 
Florida, it is much worse. We did a similar short study of the 
Caribbean, where we found devastating costs to the island 
economies that are completely at risk from climate change. 
Those are likely to cause a flood of refugees, as the speakers 
discussing security have mentioned. There are real issues about 
refugees caused by climate change. Where are people leaving the 
Caribbean because of climate change going to go? Probably not 
to Venezuela.
    And finally, there is an international dimension to this. I 
have been to a lot of climate change conferences in the last 8 
years. It has been embarrassing to go to them as an American. 
People tend to come at you again and again about what are you 
thinking of, doing nothing about it, and why we should do 
anything about it when the world's largest economy is doing 
nothing. So I am very happy to see that we have a chance to 
change that and to go back and challenge the rest of the world 
to keep up with us.
    Thank you.
    [The prepared statement of Mr. Ackerman follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Markey. Thank you very much. I very much appreciate 
your testimony.
    And now we will move to our final witness, who is Dr. 
Patrick Michaels. Dr. Michaels is a senior fellow of 
environmental studies at the Cato Institute. He is also a 
research professor of environmental sciences at the University 
of Virginia and visiting scientist with the Marshall Institute 
in Washington, D.C. Thank you for joining, Dr. Michaels. Please 
proceed with your testimony.

      STATEMENT OF PATRICK J. MICHAELS, SENIOR FELLOW IN 
             ENVIRONMENTAL STUDIES, CATO INSTITUTE

    Mr. Michaels. Thank you, Mr. Chairman. I would also like to 
thank the subcommittee for inviting my testimony on the impacts 
of climate change. The subcommittee is asking very important 
questions: what are the implications of climate change for 
national security, economic development and public health. But 
before providing informed opinion on the costs of climate 
change, one must have confident predictions of climate change 
itself.
    [Slide shown.]
    On my first slide, if I could, one, proceed from changes in 
atmospheric composition to changes as modeled by climate 
models, and then, ultimately, to the impacts. What I would like 
to examine is what is going on with our climate models. We 
often hear that the science is settled on global warming. In 
fact, this is far from the truth. Our models are not, repeat, 
not simulating global temperature trends in recent decades.
    [Slide shown.]
    Here I am going to examine in the next slide the ensemble 
of 21 models used by the United Nations' Intergovernmental 
Panel on Climate Change for their midrange projection of carbon 
dioxide emissions, and the world has been going along with this 
emissions scenario. The changes in concentration in the 
atmosphere have been very close to these estimates. Note that 
the behavior of the models is linear. They tend to predict a 
constant rate of warming. This is from 2000 to 2020. The 
individual models vary quite a bit from model to model and in 
fact some models can even have cooling trends in them for 
certain periods of time.
    [Slide shown.]
    The next slide shows the observed temperatures since the 
second warming of the 20th century started in the late 1970s. 
One of the things that you see is it actually too is constant, 
despite this much talked of peak in 1998, which is clearly a 
high point in the record as a result of solar activity, in 
addition to an El Nino and pressure from greenhouse warming.
    Now, what I am going to do is, I am going to give us the 
range of predictions from each model, next slide. From all 21 
models, I ran them for various periods of time, 5-year trends, 
6-year trends, 7 years and out to 15-year trends. The bottom 
line is the 2nd percentile of warming. The top line is the 97.5 
percentile. So this is the 95 percent confidence range in the 
climate models, and the solid black line are the observed 
temperature trends for the last 5 years, 6 years, 7 years, et 
cetera, on out to 15 years. You can see that they are running 
at or below the bottom limit of the model's confidence. This is 
not very good, and unfortunately tells us that we are 
undergoing a systematic failure of our midrange models in 
recent decades.
    [Slide shown.]
    The next slide shows what happens as this persists. Assume 
that the temperatures in 2009 globally are the same as the 
average for 2008. That is a reasonable assumption because we 
are in what is called a La Nina, which is a relatively cool 
period, and the addition of yet another year to these 15-year 
trends gives you everything below the 95 percent confidence 
level. It is very unfortunate but it tells us a lot that we 
need to do. Now, everybody knows that the behavior of the last 
10, 12 years seems to be a bit unusual, so let us extend this 
analysis in the next slide to the last 20 years, if we could. 
That would be in the next image. There you go.
    [Slide shown.]
    We have to take out the effect of Mt. Pinatubo, which 
occurred in 1991 and introduced a cooling at the beginning of 
the record so there was a rapid warming that was induced that 
biases that record. The models themselves do not have volcanoes 
in them so an apples-to-apples comparison takes that out and 
you can see again that the observed temperature range, now with 
trends on out from 14 to 20 years, is falling below the 95 
percent confidence level. What do we say? One implicit 
assumption about calculating the costs of inaction is that we 
know that reasonable confidence with the climate change will 
ensue as carbon dioxide accumulates in the atmosphere. This 
demonstration shows that oft-repeated mantra in Washington, 
``The science is settled'' is not true at all. More important, 
the rates of warming on multiple time scales are invalidating 
the midrange sweep of IPCC models.
    This is a problem that has received very little attention 
but it is very germane to this committee. Until we know, until 
we have models that in fact accommodate the behavior of recent 
decades, we appear to be overestimating the rate of climate 
change. As you can see, it is all at the lower end, where the 
observations are. If climate change is overestimated, then so 
are the impacts of that change, and that is something we must 
pay attention to as we address this issue. Thank you very much.
    [The prepared statement of Mr. Michaels follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Markey. Thank you, Dr. Michaels, very much. The chair 
will now recognize himself for 5 minutes for a round of 
questioning.
    Professor Schrag, you just heard what Dr. Michaels said. He 
is basically saying we just shouldn't worry as much about 
global warming because it is not going to be as bad as the 
models predicted. Your quick response to that?
    Mr. Schrag. Well, I think it flies in the face of all of 
our knowledge, both about earth history--we can actually get a 
very good sense of the sensitivity of the earth's climate to 
changes in carbon dioxide from looking at the past over various 
time scales, over ice ages, or even back millions and tens of 
millions of years, and the general answer we get is in fact 
that the models tend to be less sensitive than the real world. 
It is very clear from that estimate that in fact we are in for 
bigger trouble.
    Looking at the last 2 decades is a very tricky thing, what 
Dr. Michaels was talking about, simply because we also have 
sulfate aerosols that we are putting out from burning a lot of 
coal, especially now that China is burning so much coal and 
putting sulfur dioxide into the air. That counteracts the 
effect of CO<INF>2</INF>, and because we don't know that number 
very well, it means that we don't understand the rate of 
forcing perfectly, but it would be a deep mistake to think that 
that should give us comfort. In fact, the opposite conclusion 
is the case. If in fact temperature has not warmed as much 
because of sulfur emissions, sulfur doesn't last in the 
atmosphere very long, whereas carbon dioxide lasts for hundreds 
of years and that means we are in for a big shock in the 
decades ahead.
    Mr. Markey. Thank you, Professor Schrag.
    General Sullivan, you were Army Chief of Staff back in the 
early 1990s and I know you had decisions to make about Somalia 
at that time and the events that ultimately led to ``Blackhawk 
Down,'' the movie. Could you talk a little bit about climate 
change, Somalia, Darfur, that whole region in terms of how, as 
a military group, you were analyzing the climate change data?
    General Sullivan. Well, as you stated, Somalia, Darfur, 
that part of Africa has been buffeted by drought for years. The 
drought enabled, frankly, the warlords to start controlling 
food aid that was going in. They were controlling the food, 
selling the food to their people. That created the deaths of 
other tribes that weren't supported by the warlords, which 
created instability and it enabled, frankly, Somalia to move on 
to where it is a failed state now, and as we all know, you now 
have privates operating out of Darfur, which are destabilizing 
the Gulf of Aden and the Red Sea. It is all related to the same 
thing which is going on in Darfur, where you have migratory 
farmers, herders superimposing themselves on the top of farmers 
and it is a vicious cycle.
    Mr. Markey. And you relate this to drought that leads to 
famine ultimately caused by this climate change phenomenon?
    General Sullivan. Absolutely we can, and when we see the 
Himalayas, as was mentioned by Dr. Schrag, when we think about 
the water loss there, you can see the same picture in 
Bangladesh, India, Pakistan, and elsewhere, not to mention, by 
the way, Israel, Jordan, the Palestinians. The water in that 
part of the world comes from the Jordan River, and it is all 
related.
    Mr. Markey. Thank you, General Sullivan.
    Mr. Woolsey, could you expand upon General Sullivan's point 
with regard to the national security implications for our 
country if we see deterioration because of climate change in 
these regions of the world?
    Mr. Woolsey. Mr. Chairman, it can hit us very close to 
home. One of the fastest set of melting glaciers is apparently 
in the Andes, and if we think we have trouble coming up with a 
sound and agreed-upon immigration policy for the United States 
now, what is it going to be like if our southern borders are 
seeing millions of our hungry and thirsty southern neighbors 
headed toward temperate climates? Also, from the point of view 
of our being able to ameliorate some of the terrible events 
from weather pattern changes and so forth, such as the U.S. 
armed forces did, particularly the Navy, so well in response to 
the tsunami in Indonesia a few years ago, it is going to be 
very difficult for any country, even us, to shoulder much of a 
humanitarian burden if we are seeing direct and immediate 
effects that we have to deal with that stress our own systems 
here.
    I chaired the policy panel for a defense science board 
study last year that was chaired by former Secretary of Defense 
Schlesinger, and our report called ``More Fight, Less Fuel'' is 
on the defense science board Web site. It might be worth the 
committee having a look at because it talks about the 
interaction of energy policies and the capabilities of the 
armed forces, and there is a classified annex, which the 
committee certainly can have access to, I am sure, through the 
Defense Department, and I can tell the staff about that.
    Mr. Markey. And Mr. Woolsey, you would recommend that the 
members see that classified annex because it does relate to 
climate change and it impact on----
    Mr. Woolsey. It does.
    Mr. Markey [continuing]. National security?
    Mr. Woolsey. It relates principally to specific 
vulnerabilities of our military as a result of things like 
electricity grid vulnerability.
    Mr. Markey. My time has expired.
    Mr. Woolsey. But that is one of the subjects, but the 
classified part deals mainly with that.
    Mr. Markey. Thank you, Mr. Woolsey.
    The chair recognizes the gentleman from Michigan, Mr. 
Upton.
    Mr. Upton. Thank you, Mr. Chairman, and I want to make a 
couple of comments and get the reaction from you all. First of 
all, General Sullivan, your statement, energy alternatives to 
reduce reliance on fossil fuels needs to be a priority, is one 
that I think most of us share, and I appreciated that.
    Admiral Woolsey, we have had some briefings, I guess you 
could say, in the last year about the vulnerability of our grid 
and what terrorists might be able to do, and I would hope that 
if this stimulus package passes, that some of those concerns 
can be addressed in terms of the smart grid. Maybe that is 
something that we need to have a hearing on at some point later 
this year. It came to a head last year with Chairman Boucher.
    Mr. Markey. We will do that.
    Mr. Upton. But I would like to just make a couple of 
comments. We haven't done just nothing. In my view, we have 
actually done a lot, and Dr. Ackerman, you shouldn't be 
embarrassed by the lack of activity when you look at the 
progress that our country has made. Until this year, we have 
had a growing economy, growing population, and we have tried to 
figure out how we are going to be prepared by the year 2030, 
when our electricity use is expected to go up as much as 40 to 
50 percent. We have done a lot on conservation. We are focused 
on renewables. A number of States, including mine, now have an 
RFS standard. Texas is another State that has done the same 
thing. With maybe the exception of Nantucket, we are actually 
doing something about wind but we will deal with that 
Massachusetts issue another day. Nuclear has been to me, I have 
been embarrassed. I have been embarrassed about the lack of 
progress on nuclear, that we haven't actually turned that 
switch back to green after 20-some years. We made progress on 
autos. I know the chairman and I were both at the auto show 
here in D.C. this last week, and it is amazing to see some of 
the new cars that are going to be in the showroom not only this 
year but in the future and you look at some of the electric 
hybrids that the Big Three are developing, all to be in the 
showroom by some time next year.
    We have seen great strides on appliance standards, building 
standards, Jane Harman, my colleague, on light bulbs, who is 
here, those kick in within a couple years and we are going to 
save tons of carbon from being emitted into the atmosphere, and 
it was something that we worked on together.
    FutureGen, I think there is money in the stimulus package 
for FutureGen, and I hope that that works. I am a very strong 
supporter of clean coal, and I would say that we are probably 
doing more as a Nation on carbon capture than just about 
anything else. In the hearing that we had with U.S. CAP a 
couple weeks ago, you know, they are hoping by 2015 we are 
going to have an answer. Again, we are the leaders on that 
technology.
    And when you look at that, since 2002, despite, you know, 
we have had a growing economy, our greenhouse gas intensity has 
actually fallen by an average of about 2 percent per year from 
the year 2002 to 2007. When you counter that with what has 
happened in the E.U., it came up with a scheme, as Mr. Gore 
would say, on cap and trade and their emissions have actually 
gone up, not gone down. So our concern, when you look at these 
statistics, the United States emits about 5\1/2\ billion tons 
of energy based on CO<INF>2</INF> each year. The developing 
world does 14 billion tons, almost three times as much. By 
2030, we are going to increase allegedly by about 2 billion 
tons annually but again the developing world is going to go up 
by another 12.8 billion, or six times what we are expecting to 
do. Now, we need incentives for clean energy. I think we can do 
it. We need to be on that path, but what happens if the 
developing countries, China and India, China now the world's 
largest emitter, what if they don't follow that track? My State 
is so hard hit, we are devastating by the job losses and our 
economy is just totally in the tank, and I can just see that 
this will be yet another incentive for those jobs and economic 
opportunities to go someplace else.
    I don't know who would like to respond to that but I 
wouldn't be embarrassed. I think we have been on a road of 
progress, and I look forward to continuing that road of 
progress, to have the incentive to actually see us get to the 
conclusion that certainly General Sullivan would like us to 
see. In my remaining time, who would like to respond?
    Mr. Markey. The gentleman has 2 seconds left for the panel 
to answer. We will give one person down here a chance to 
respond.
    Mr. Woolsey. First of all, Congressman Upton, thanks for 
the promotion but I never got above captain----
    Mr. Upton. All right. I am sorry.
    Mr. Woolsey [continuing]. In General Sullivan's 
organization, the Army. I think you make a good point. In our 
own way, we have made some progress in a number of these areas 
but we haven't always chosen the most effective way to do it. 
For example, the renewable portfolio standard has some positive 
features but you get just as much credit for moving away from 
natural gas to renewables as you do moving away from coal, 
whereas if you had a feed-in tariff, you would have a lot more 
incentive, I think, to move, not only for large facilities 
like, say, solar power plants and wind farms but also to 
distribute it a generation. I think it is a far superior 
mechanism. The Germans have shown how well it works in Germany. 
So we haven't really picked, I think, in many circumstances the 
mechanisms that can move us quickly, and I agree with you very 
much about plug-in hybrids. I drive one myself, and the 
infrastructure I picked up at Walmart for $14.95. It is an 
orange extension cord, and that is all the new infrastructure 
you need for a plug-in. It is a pretty good deal.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Utah, Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman.
    Professor Schrag, one of the issues that Congress is going 
to have to deal with if it puts together a cap-and-trade bill 
is setting the targets from year to year and what the shape of 
the curve is going to be over time, and the panel today has 
talked about a sense of urgency about wanting to take action, 
and I think you have heard a lot of folks, Members of Congress, 
also acknowledge that sense of urgency. But we have got this 
challenge because there are certain technologies out there that 
are not at the level of maturity that we would like them to be 
for us to have real certainty about our ability, whether it is 
carbon capture and sequestration, whether it is alternative 
fuels, cellulosic ethanol, whatnot, so I wondered if you could 
talk to me for a bit about your thoughts about what the shape 
of the curve should be. If you don't know what specifically 
what the shape is, how should we decide what those targets 
should be from year to year?
    Mr. Schrag. I think that is a very good question. I think 
that there clearly there needs to be, and economists and 
scientists would both agree, that there clearly needs to be a 
price on carbon, but putting a price on carbon too quickly too 
high would have a bad effect because, as you said, some of the 
major technologies that are going to be necessary to meet these 
challenges aren't really demonstrated yet, and what that means 
in practical terms is that banks and financial institutions 
aren't willing to invest in those projects.
    So I think there is a two-prolonged approach. One is, I 
think through the stimulus package and additional things that 
this Congress will do over the next 2 years, we need to see 
government support, perhaps loan guarantees, for getting some 
number, a dozen, 10, 20 major projects in these categories, 
carbon capture and storage, synthetic fuels that are clean, 
that are low carbon and are capital intensive, and we need to 
demonstrate to the market that these technologies can work. 
Find out what works and find out what doesn't work and find out 
what it really costs. We need to build some nuclear plants and 
figure out what they really cost. But it is also very important 
in setting the price on carbon through a cap and trade or 
whatever additional mechanisms are used by this Congress that 
you forecast to the market that the long-term price is going to 
rise because unless that is done, you won't get the right type 
of investment in technology. It is very important that I think 
you start out with a low price that doesn't really hurt our 
industry in the short run, but in the long run that price has 
to rise and we have to forecast that it will rise.
    My final point is the concern that the Congressman from 
Michigan and many others have expressed of loss of jobs 
overseas. It is a very serious issue. I actually think the best 
way to get China and India engaged is to take a start and focus 
on the technologies that will apply to their economies, and 
there are some trade issues that we could deal with, like a 
non-discriminatory tariff that would level the playing field, 
much more easier to enforce if we got together with the E.U. 
and then went to China and India and talked. I think those are 
very interesting ideas that need to be explored.
    Mr. Matheson. I think your ideas have merit but I have to 
say, it also still points out this challenge that we have of, 
you have talked about the notion of perhaps government-
sponsored efforts to encourage how we learn about these 
technologies over the next couple years and yet we are talking 
about moving a bill this year that is going to set these cap 
levels and these targets year by year. But we won't have that 
information yet in the next 2 or 3 years or however long it is 
going to take to develop those technologies, and I don't know 
if I am asking you another question or just pointing out the 
challenge I think we face here in terms of trying to get this 
right.
    Mr. Schrag. I think that the low-hanging fruit in all of 
this is energy efficiency. It is probably negative cost, or at 
least it is not extremely expensive. It makes us leaner and 
more competitive around the world, and I think the initial 
impact of a low price on carbon through a cap-and-trade bill is 
going to be a huge investment in energy efficiency and that is 
great for the U.S. economy and its competitiveness. Some of the 
bigger, deeper cuts down the road as the cap tightens in the 
future will come from these other technologies and that means 
separate from the cap and trade. We have to get some of these 
technologies built, not just at a demonstration scale, but at a 
real commercial scale so we can see what happens.
    Mr. Matheson. Mr. Woolsey, you mentioned the last time 
about the feed-in tariff in Germany. Could you explain that a 
little more to the committee right now?
    Mr. Woolsey. Yes, I will say very briefly, Congressman 
Inslee has forgotten more about that issue than I will ever 
know so he is one of the resident experts up here but the 
Germans came up with this mechanism, and it has been adopted in 
a number of other countries to guarantee a reasonable price for 
generation of renewables that one has a right to whether one is 
a small rooftop generator, photovoltaics on the roof of the 
farmhouse like I have on mine or whether one sets up a large 
number of solar panels, let us say, in a retirement complex for 
hundreds of homes. In most of the United States, the utilities 
and the public utility commissions have a mindset that the way 
to produce electricity is to build big power plants and string 
transmission lines and distribution lines. They have been doing 
that for well over a century. They know how to do it and these 
are the policies they implement. What a feed-in tariff does is 
say if you are doing renewables, you can get paid a reasonable 
price by the utility in order to send back to the grid a 
certain amount of renewable power, and it may be a relative 
large amount if you are a small corporation, or it may be a 
small amount if you are a household. In much of the United 
States, you can do what we do at our farm. You can run your 
meter backwards to zero by having photovoltaics on the roof, 
but you can't make money, and the Germans have figured out, I 
think better than anybody else, how to incentivize renewables 
with a relatively simple process. It is easier for them because 
they have--our electricity is largely done State by State, not 
everything, but a lot, but that is a broad outline of the 
issue.
    Mr. Matheson. I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Kentucky, Mr. Whitfield. I am 
sorry. I did not see the gentleman. The chair, with the 
indulgence of Mr. Whitfield, will recognize the ranking member 
of the full committee, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I am such a shrinking 
violet, it is easy to overlook me.
    I want to start out with Dr. Michaels by complimenting you 
on being here, and I want the record to show that the rules of 
the committee ostensibly require that there be two Minority 
witnesses, or a third of the witnesses be Minority, which if 
you take six witnesses, we should have two Minority, but Dr. 
Michaels is our only one, so it is five to one, which we 
appreciate you being the one, Dr. Michaels, for showing up.
    Mr. Hall. Would the gentleman yield?
    Mr. Barton. I will at the end of my time if we can get a 
little extra time.
    Mr. Hall. I may forget what I am going to ask you by that 
time.
    Mr. Barton. All right. I will yield. I only have 4 minutes.
    Mr. Hall. I just wondered if you knew that the chairman had 
four, and when he found out Dr. Michaels was really going to be 
here, that he added Professor Schrag and made it--it must 
really say something for Dr. Michaels.
    Mr. Barton. That is one way to----
    Mr. Hall. I yield back my time.
    Mr. Barton. Anyway, Dr. Michaels, you are an active 
official of the U.N. Intergovernmental Panel on Climate Change. 
Is that not correct?
    Mr. Michaels. Yes.
    Mr. Barton. OK. So you are not some out in right field guy 
who is just observing, you are active in the participation of 
the IPCC?
    Mr. Michaels. Yes.
    Mr. Barton. These models that you refer to in your 
testimony, for lack of a better term, they are the official 
models of the U.N.?
    Mr. Michaels. The U.N. uses three suites of models that 
they concentrate on in their latest report. The one I looked at 
was the midrange suite because that is the one at which the 
concentrations of CO<INF>2</INF> that are in the atmosphere 
resembles the most.
    Mr. Barton. But these aren't models sponsored by Exxon-
Mobile or----
    Mr. Michaels. No.
    Mr. Barton. These are the official U.N.----
    Mr. Michaels. There are----
    Mr. Barton [continuing]. Subset of----
    Mr. Michaels [continuing]. Twenty-one different models that 
they use.
    Mr. Barton. OK. Now, I'm going to read from your testimony, 
or at least paraphrase from your testimony. We often hear that 
the science is settled on global warming. This is hardly the 
case. There is considerable debate about the ultimate magnitude 
of warming. I must report that our models are in the process of 
failing. When I say that, I mean that the ensemble of 21 models 
used in the midrange projection for climate change for the 
IPCC. If it is demonstrable that these models have failed, then 
there is no real scientific basis for any estimates of the cost 
of inaction. Now, why do you say that the models are failing? 
And again, these are the official U.N. climate change models. 
These aren't some business-sponsored, anti-climate change 
models, these are the ones that everybody is basing their so-
called projections on. Why do you say they are failing?
    Mr. Michaels. What I did is, I looked at the range of 
projections made by these models and I looked at them for 
multiple, multiple iterations. For example, I used 20 years of 
models and for 5-year projection ranges, I moved forward 1 
month beginning at 60 months and then 1 plus 61, etc. It was a 
very, very large sample size that can give you the distribution 
of warming rates for different lengths in time predicted by the 
models and then you can compare that to the observed warming 
rates for the last 5 years, for the last 10 years, for the last 
15 years and the last 20 years, and what you see is that the 
observed temperatures fall along or below the 95 percent 
confidence limit for the model.
    Mr. Barton. So they fail because they don't predict the----
    Mr. Michaels. They predict too much warming, and if you 
take a look at the systematic behavior of the models, which is 
very interesting, they generally predict constant ranges of 
warming, not increasing rates of warming, and in fact, the rate 
of warming since 1977 does correspond to a constant rate. It 
just happens to be right at the lower limit of the rates that 
are given by the families of models. That tells me something. 
Nature has been responding to carbon dioxide for decades, and 
maybe we ought to listen to nature rather than to computers.
    Mr. Barton. Dr. Schrag showed a chart early in his 
presentation that shows the last 650,000 years of temperature 
as far as we know it and it shows it going up and down, up and 
down, up and down. For most of that time period there were no 
human beings as we know them today on the earth, so what caused 
the rapid increase in temperature those previous times since 
there were men around?
    Mr. Michaels. Well, these are the Ice Age oscillations that 
you see in these ice core records. Those were caused by earth 
orbital changes, we think. That is the current myth. That myth 
is ultimately subject to----
    Mr. Barton. But it obviously couldn't have been caused by 
manmade CO<INF>2</INF>?
    Mr. Michaels. It was not caused by carbon dioxide, no.
    Mr. Barton. Mr. Chairman, could I have one more question?
    Mr. Markey. Yes.
    Mr. Barton. I know my time has expired.
    Mr. Markey. Of course.
    Mr. Barton. Dr. Michaels, I am told that in these core 
samples and the pinecone samples and all of those data sets 
that it appears that the temperature goes up before the 
CO<INF>2</INF> concentrations go up by a time period somewhere 
between 100 to 800 years. So in other words, the dominant 
variable is temperature and the dependent variable is 
CO<INF>2</INF>. Is that correct?
    Mr. Michaels. There are instances in that record where in 
fact the temperature changes precede the changes in carbon 
dioxide.
    Mr. Barton. So what we have is a theory that CO<INF>2</INF> 
is driving temperature but that is all it is. It is a theory. 
It is not a scientific fact, is it?
    Mr. Michaels. Well, no. This argument gets very, very 
complicated. Carbon dioxide in laboratory experiments is 
demonstrated to absorb in the infrared, and everything else 
being equal, you will get a warming from CO<INF>2</INF>. That 
is really not the point that I am trying to make. The point is 
that the warming has been tending to run underneath what is 
projected by our midrange models and so therefore there is a 
reasonable argument that the sensitivity that is within the 
models for very complicated reasons has been overestimated.
    Mr. Barton. That little beep beep means our time has 
expired.
    Mr. Michaels. I am sorry.
    Mr. Barton. We appreciate the discretion of the chairman 
and we look forward to him showing more discretion in future 
hearings.
    Mr. Markey. And it will be forthcoming. The gentleman's 
time has expired. The chair recognizes the gentleman from 
Washington State, Mr. Inslee.
    Mr. Inslee. Dr. Michaels, I am stunned that you have come 
here and talked about things that just don't seem to make any 
scientific sense to me. I have listened to your testimony with 
care, and what you did is, you compared observational data in 
the past to models in the future and you said that the rate of 
change in the models of the future are different than the 
observational data in the past, that there must be something 
wrong with the model. Now, that makes no sense whatsoever on a 
scientific basis. If you want to compare models to 
observational data, you have to do it in the same time period, 
and in fact, the observational data with the modeling data in 
the past is quite consistent. You showed a difference between 
observational data in the past and modeling projections in the 
future, and there is some difference because it shows an 
accelerated rate of warming, which is consistent with what is 
going on in the real world. Now, how can you possibly come here 
and think you are going to blow this one right by us and nobody 
is going to figure this out? Do you take us for real chumps up 
here?
    Mr. Michaels. I really would prefer that we do not get 
personal. In fact, there is substantial overlap between the 
period that I looked at. Half of the period that I looked at 
overlaps the models. Number two, and we could go to my 
graphics. I don't know how hard they would be to come up with. 
Can we go to----
    Mr. Inslee. Sure. Let us do that. Let me ask the staff to 
put up the global mean surface temperature chart, source IPCC/
AR-4. Can you put that up, please? Because I think what we will 
see is if you were forthright with this committee, you would 
say that the modeling data is quite consistent with the 
observational data in the past.
    Mr. Shimkus. Mr. Chairman, would you yield for a second? I 
would ask my colleague from Washington State not to disparage 
and call the panelist a liar. When you propose the fact that he 
is not forthright, you are making the premise that he is 
actually providing testimony that is not true. He is a noted 
citizen, respected policy observer on the U.N. climate, and I 
think it is just egregious that we attack the only Republican 
panelist we have on this committee when you have five on your 
side.
    Mr. Markey. Let me just note that the gentleman from 
Washington State did not use the word ``liar.''
    Mr. Shimkus. He said he was not forthright. Mr. Chairman, 
we can quibble about words but we know what that means.
    Mr. Markey. Well, I appreciate that, but I think, as we 
know----
    Mr. Michaels. I think I can defuse this with a very simple 
answer.
    Mr. Markey. If I may, Dr. Michaels, there is a difference 
in terms of which term is used in terms of the response someone 
is trying to elicit from a witness, and we are going to put the 
time back on the clock for the gentleman from Washington State, 
and I don't think that the gentleman from Washington State was 
doing anything other than trying to engage in--by using the 
word ``forthright'', trying to use terminology that would have 
a scientific discussion. If he had used the word ``liar'' or if 
any member uses the word ``liar'' here, I am going to rule them 
out of order in this hearing or any other hearing. If he 
engages in the use of language which is commonly considered to 
be abusive, I will do that. I don't think using the word 
``forthright'' in the way in which he did it in this scientific 
discussion really was intended to be a personal insult. If 
anything, the gentleman from Washington was using the word 
``chump'' to refer to himself in this discussion and I felt 
that that was also an inappropriate word.
    Mr. Inslee. That may have been over the line. I will 
apologize for myself----
    Mr. Markey. In my opinion, that was----
    Mr. Inslee [continuing]. My self-descriptive chumpdom.
    Mr. Markey [continuing]. A self description.
    Mr. Inslee. And I want to say for the record----
    Mr. Markey. I will put the time back on the clock up to 
approximately 3 minutes.
    Mr. Inslee. Thank you, and I want to make clear that Mr. 
Shimkus is always forthright, and I appreciate his 
observations. But I do want to point out that I think a 
forthright assessment of the scientific principles is that one 
does not compare apples to oranges and criticize a model that 
has essentially been accurate with observational data, and if 
you look at the chart that is on the screen now, it will 
compare the modeling data to observational data prior to the 
year 2004, and I think you will see there is a very high degree 
of correspondence between the two showing that the modeling 
data compared to observational data in the past are very, very 
close. Now, what we have seen with the modeling data, a 
forthright statement is that the model suggests an accelerating 
rate of global warming and in fact that is what we have 
experienced and that is why everyone with their eyes open are 
now seeing very significant changes in our climatic system. I 
will ask Professor Schrag to comment on that if that is a fair 
assessment of the evidence.
    Mr. Schrag. I think that is a fair assessment, and I think 
it is correct that the models are predicting an accelerated 
response over the next several decades. Part of the reason is 
what I said earlier, the aerosol effect that has been 
essentially dampening the effect of CO<INF>2</INF> is short-
lived and over time we will see the CO<INF>2</INF> continue to 
accumulate and the impact of CO<INF>2</INF> grow and grow 
relative to the aerosol forces.
    Mr. Inslee. And I may note the acceptance of this 
forthright scientific data is becoming so widespread that this 
is a debate we should not be having. Today I just got a message 
on my BlackBerry that Exxon Oil was at a meeting yesterday or 
this morning talking about the need to respond to global 
warming. This just isn't a debate anymore, and it is 
unfortunate that our committee is sort of fighting the Civil 
War again, and we have to stop fighting the Civil War and try 
to find a bipartisan consensus on how to move forward, and I 
really look forward to the day when the witnesses who are 
before us from the Republican side will talk about how we 
design a cap-and-trade system that will minimize any 
dislocation. I just look forward to that day. I hope it is 
coming shortly because I think the forthright conclusion we can 
draw on a bipartisan basis is that we know what is going on, it 
is not good, and I look forward to the day we can jointly 
figure out a way to solve that.
    Thank you. I yield back.
    Mr. Michaels. Mr. Chairman, can I respond?
    Mr. Inslee. You have 15 seconds if you like. Go ahead.
    Mr. Michaels. OK. These are the A1B scenarios. I hope you 
have good eyes. You can see that the rates are in fact not 
accelerating over the course of 100 years, in fact, they are 
constant, and that the rates that are being observed which are 
also constant are at the low end of the projection ranges made 
by the A1B scenarios. Those are constant. If you have good eyes 
back there, you can see that. Thank you very much.
    Mr. Inslee. Thank you to all witnesses.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman. I think the 
frustrating thing about this debate is, I read an article the 
other day where someone said that in all my years of doing 
science, I have never seen this sort of gag order on people 
trying to speak their views, whether they disagree or agree 
with the projections of the impact of global warming, and that 
stems from the fact that Dr. Michaels, because of actions taken 
by Governor Tim Kaine of Virginia, Dr. Michaels was state 
climatologist and actually lost his job there and at the 
University of Virginia because he continued to speak out on 
global warming, which was different than the position of the 
governor. In addition to that, an official in Oregon lost his 
job because his views were different than those of the governor 
of Oregon. He continues to speak out on global warming. In 
Delaware, Governor Ruth Ann Minner got upset because one of the 
climatologists there participated in an amicus curiae brief 
before the Supreme Court in which they were questioning some of 
the scientific evidence on global warming. In Washington State, 
Mark Albright lost his job for the same reason. And I think it 
is disturbing that on an issue this important that can have the 
impact in the future that this has, that we get into these 
kinds of situations. I think the important aspect of this is 
that everybody give their views and then let us make decisions 
and try to solve the problem.
    I noticed that Professor Schrag made the comment that 
generally they are very conservative in their arguments about 
global warming and the impact of global warming and yet when I 
read Dr. Ackerman's testimony on footnote 4, which he talks 
about on page 5, he said since the future will only happen once 
and we want to know how bad the risk of future damages could 
be, we are going to use the worst limit of what IPCC calls the 
likely range of outcomes, and that is fine, but as politicians 
when we go out to civic clubs and everywhere else and we make 
speeches, we try to find evidence that will back us up, and 
when you get people who are really totally convinced that we 
need to take drastic action to prevent the impact of global 
warming in the future, we are going to take the studies, the 
worst-case scenario being according to Dr. Ackerman that by 
2100, U.S. temperatures are going to rise 12 to 13 degrees 
Fahrenheit. In Alaska they are going to rise by 18 degrees 
Fahrenheit. Sea levels are going to increase by 45 inches and 
hurricane intensity will create damages estimated to be $397 
billion by 2100.
    Now, I might also say that Chris Lancey, who was 
contributing to the IPCC in the area of hurricanes, resigned 
from the IPCC because he said that the leading author had a 
press conference and emphatically stated that increased 
hurricane intensity was due to global warming, and Lancey 
resigned from that. The reason I know about that because we had 
a lengthy oversight hearing about that a number of years ago. 
Now, Dr. Ackerman, I know you want to make a comment, Dr. 
Michaels wants to make a comment, so Dr. Ackerman, you go 
ahead.
    Mr. Ackerman. OK. We did look at not the absolutely worst 
case but the 83rd percentile of the range that was suggested, 
the worst of the IPCC likely. It means the 83rd percentile. The 
future is going to happen once and a cost-benefit calculation 
based on the average or most likely gives you a 50 percent 
chance of not being bad enough. People don't think that way in 
ordinary life. Insurance, which never passes a cost-benefit 
test, is what people do when they are facing a severe risk 
which they can't afford. That is absolutely what we are facing 
here. The science, you know, what it looks like at the 83rd 
percentile of risk for this century looks pretty bad. Now, in 
terms of the hurricane debate, I know there has been a lot of 
debate about the details of that. Roger Pielke Jr. is one of 
the critics of the position that we took on hurricanes, read 
over my reports. I had a long correspondence with him. He 
persuaded me that I had a small numerical error that made it 6 
percent too high. He was very happy to hear that I corrected 
it. There is another footnote in my testimony that tells you 
that I am using the numbers based on my correspondence with 
him.
    Mr. Whitfield. And thank you very much for that. My time 
has expired but I would like Dr. Michaels to be able to make 
his comment as well.
    Mr. Michaels. Well, there are several places that I would 
like to comment and obviously do not have time for it. I will 
say in the Stern Report, which has been oft quoted here, that 
the worst-case climate scenarios are assumed and the discount 
rates are thought to be economically very unrealistic. With 
regard to the employment problems that certain people have had, 
I just think that is very sad. We thrive on intellectual 
diversity. People are not promoted from assistant to full 
professor at major universities for doing nothing, and for the 
political process to have interfered there is a very, very, 
very black and sad thing.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Before I get into some 
of the questions, I would like to ask Mr. Woolsey, you made a 
statement a few minutes ago that you get the same credit for 
not burning coal to create electricity as you do if you don't 
burn natural gas, and that is not what I understood. I thought 
that coal plants emit much more carbon than, say, a natural gas 
plant.
    Mr. Woolsey. Coal plants do produce a greater amount of 
carbon per BTU than natural gas does. What I was saying was 
that the instrumentality of the renewable portfolio standard 
doesn't really discriminate between gas and coal. It just wants 
an increase in renewables. There was a very good op-ed in the 
Wall Street Journal about this a couple of weeks ago and that I 
thought a feed-in tariff was a superior mechanism to a 
renewable portfolio standard for the purpose of emphasizing 
renewables in a more effective way.
    Mr. Green. Thank you for that clarification because if we 
are looking at controlling carbon, a renewable standard may be 
one of the avenues, but we also need to make sure that 
renewable standard is something that you are ultimately going 
after with the carbon capture or the carbon sequestration.
    Dr. Ackerman, in order to evaluate the cost of inaction on 
climate change, you compare the economic consequences of two 
possible climate scenarios in a business-as-usual case or 
unchecked growth in greenhouse gas emissions with rapid 
stabilization case, whereby the United States reduces its 
emissions by 80 percent accompanied by a 50 percent reduction 
in total world emissions. Under your rapid stabilization case, 
what happens if only the United States acts to reduce its 
emissions while major emitters such as China or India do not 
follow suit? Will the cost of inaction become smaller or 
greater?
    Mr. Ackerman. There is really no hope of solving this 
problem if we don't have a global agreement on it. No country 
represents more than 20 percent of the total. The United States 
and China are both at about that point so----
    Mr. Green. Thank you. Since we only have 5 minutes and I 
have a whole lot of questions, I thank you for that. My next 
follow-up is, so in your opinion, it is crucial that reductions 
in greenhouse gas emissions are linked to a global action to 
reduce carbon emissions?
    Mr. Ackerman. Absolutely. It has to be done globally.
    Mr. Green. Could we ever achieve a rapid stabilization case 
without strong mandatory reductions by other major emitters?
    Mr. Ackerman. No. Everybody has to agree to reduce.
    Mr. Green. Your analysis found that under the business-as-
usual case, combined increased costs for electricity added up 
to $141 billion per year in 2001 or .14 percent of projected 
U.S. output. Last year there was an EPA analysis of climate 
change legislation, Senate bill 1766, by Bingaman and Specter 
and the Senate found that electricity prices were projected to 
increase 40 percent in 2030 and an additional 25 percent in 
2050. How do these increased costs of climate change addressing 
climate change in the EPA analysis compare with your estimates 
under a business-as-usual case for electricity rates?
    Mr. Ackerman. I haven't looked at that EPA study. I know 
that our subcontractors, who analyze the electric power system 
were actually quite conservative in the costs that they were 
able to look at, mostly looking at increased air conditioning 
load. There are a number of other effects on the power system 
which they were not able to quantify so I would not be 
surprised if someone else came up with a higher number.
    Mr. Green. I appreciate it coming from a part of the 
country that we need LIHEAP from May to September for our poor 
folks. I appreciate that.
    Mr. Woolsey, you made several observations in your work on 
malevolent and malignant threats regarding climate change 
impacts on our energy infrastructure. Can you further elaborate 
on your point that our energy systems are vulnerable to climate 
change?
    Mr. Woolsey. Well, they contribute to climate change 
insofar particularly as they use coal and oil but they are also 
vulnerable. For example, Hurricane Katrina barely missed the 
Colonial Pipeline, which is a major pipeline from the Gulf up 
to the East Coast. Most of us around here would have done a 
good deal more bicycling and walking had Katrina been just a 
mile or two different from where it was, and the electricity 
grid in Cleveland suffered an outage in August of 2003 when a 
tree branch touched a power line in the middle of a storm, and 
within 9 seconds some 50 million consumers were offline in the 
United States and eastern Canada. Now, probably 2 decades ago 
that would have been an outage in part of Cleveland, but 
because our electricity grid is so stressed and is so 
overloaded with the demands of running a deregulated system and 
everybody being able to shop all over the country for every 
little bit of electricity and so on, it has produced an 
extraordinarily vulnerable system, vulnerable to natural 
interference, such as a tree branch touching a power line, and 
unfortunately, terrorists are a lot smarter than tree branches.
    Mr. Green. And I appreciate that, and hopefully this 
stimulus reinvestment bill that has money in there for 
transmission expansion and also other things will help that, 
because that is one of the issues. We need to have alternatives 
to having just one line.
    I have one more question if I could----
    Mr. Markey. Very quick.
    Mr. Green. Dr. Ebi, can you explain how increasing 
temperatures could facilitate the development of ground-level 
ozone and how this could impact public health within pollution-
prone areas? Specifically, do you suggest that the United 
States coordinate the public health responses to climate change 
across the level of Federal Government?
    Ms. Ebi. The rate at which ground-level ozone is formed, 
and it is formed on clear, cloudless days, the rate is 
temperature dependent. All else being equal, if the temperature 
goes up there will be more ground-level ozone.
    Mr. Green. And how do you suggest we coordinate between our 
public health responses? Because, again, coming from the 
Houston area, we have an ozone problem, and is it coordination 
of the federal agencies in response to that is what we should 
do?
    Ms. Ebi. There needs to be coordination not only with the 
Federal Government but across borders because there is also 
hemispheric transport of ozone.
    Mr. Green. Thank you.
    Mr. Markey. The gentleman's time has expired. We will 
recognize the gentleman from Illinois for 6\1/2\ minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I did an opening 
statement so----
    Mr. Markey. I am going to balance you out with Mr. Green.
    Mr. Shimkus. Thank you, Mr. Chairman. I would like, Mr. 
Chairman, if we could submit James Connaughton's report from 
December 2007 on the Energy and Climate Policy. In here there 
is a couple of noted aspects, $37 billion in climate change. 
Before the stimulus bill, that would have been real money in 
Washington. Now $37 billion is chump change, but I would say 
that is doing something. I would also want to highlight an 
issue in here about the important transitions of emitting 
countries. It does address what are some of the answers. We are 
really flatline growth from 1990 projected to 2095. It is the 
developing countries. I can guarantee you the developing 
countries are not going to go into a worldwide climate policy. 
We met with the Chinese a few years ago, asked them a couple 
times. Their basic response was, you had your chance to get to 
the middle class, now it is ours.
    The only thing we have is fear left, Mr. Chairman. It is 
fear on the stimulus, $900 billion. It is fear for immediate 
action on climate change. When in the world do we stop 
attacking a messenger of a divergent scientific opinion? And 
shame on us for doing so. If we were to apply the Fairness 
Doctrine that we are going to try to ram down America on 
telecommunications policy, the Fairness Doctrine would say 
three panelists for a view on climate change that is supportive 
of what Dr. Michaels is speaking of and three in opposition, so 
I would hope that as we talk about Fairness Doctrine, that 
would be brought to the committee.
    Let me ask, how would each of you respond--of course, I 
have very limited time--to this statement: We will harness the 
sun and the winds and the soil to fuel our cars and run our 
factories. True or false, Dr. Michaels?
    Mr. Michaels. I can't give you an answer.
    Mr. Shimkus. Dr. Ackerman?
    Mr. Ackerman. I would need more information.
    Mr. Shimkus. Dr. Ebi?
    Ms. Ebi. I agree, there would need to be additional 
information before I could comment.
    Mr. Shimkus. OK. Here is a statement: We will harness the 
sun and the winds and the soil for fuel to fuel our cars and 
run our factories. Mr. Woolsey?
    Mr. Woolsey. Today I drive a plug-in hybrid and I have 
photovoltaic cells on my roof and batteries in my basement, and 
I drive 40 to 50 miles a day on sunlight.
    Mr. Shimkus. I mean yes or no.
    Mr. Woolsey. Yes, it can be done.
    Mr. Shimkus. And your electricity comes from what commodity 
product?
    Mr. Woolsey. It comes from Baltimore Gas and Electric, 
which is whatever they use. Some of it is coal, some of it is 
other. But----
    Mr. Shimkus. But that is not wind and that is not solar.
    Mr. Woolsey. They are moving into----
    Mr. Shimkus. And that is not renewable as by the definition 
of our----
    Mr. Woolsey. Solar is part of it.
    Mr. Shimkus. Again, I am just saying this statement.
    OK. Let us go to General Sullivan.
    General Sullivan. I have no idea.
    Mr. Shimkus. OK. Yes. Thank you. An honest answer. I will 
tell you, you are not going to operate a United States steel 
mill on wind, on solar, on renewables.
    Mr. Woolsey. It will take a lot longer.
    Mr. Shimkus. Well, I will say you will never run a United 
States steel mill on wind, on solar, on renewables.
    Mr. Woolsey. I disagree.
    Mr. Shimkus. And that is what this process is all about.
    Professor Schrag?
    Mr. Schrag. I think what is missing from this question is 
the time scale. In the next decade it is going to be very hard 
to switch off of fossil fuels. It is more than 80 percent of 
our energy. Long-term scales, we are going to have to because 
we are going to run out and that is just the way it is. It is 
going to get very expensive. And, you know, today in Iceland, 
for example, Alcoa is building aluminum smelting plants that 
are run on geothermal so it is possible, it is just expensive 
in other parts of the world and in the United States today, but 
at some point fossil fuels are going to get even more 
expensive, and the security issues associated with that are 
serious.
    Mr. Shimkus. Well, in this part of our debate on climate 
change, because those of us who are for all-of-the-above 
strategy, if you want to talk national security and having 
reliable power, the nuclear power has to be part of this 
debate. The environmental left has yet to come to the table to 
believe that growth in the nuclear power movement in this 
country. They continue to block the ability to store high-level 
nuclear waste at Yucca Mountain. They will allow the continued 
storing of this on site to a point where the reservoirs will be 
full, and these sites will have to be decommissioned. We are 
actually paying federal tax dollars to these companies to store 
the waste that we have agreed to hold.
    I would like to ask Dr. Michaels, I think a lot of us are 
concerned especially with the comments made today and your lone 
voice and this issue of fear. I mean, you hear the world is 
going to end and we have to do something now. Tell me why you 
believe there is this rush to act.
    Mr. Michaels. That is a very complicated question. It is 
obviously political. Obviously a lot of voices are not being 
heard. And my fear, my fear is that that is going to have a 
very counterproductive effect and I really want the committee 
to consider this. If you take capital out of the system with 
expensive taxes and cap-and-trade programs, that capital would 
normally be used by individuals in their 401(k)s for investment 
and those investments are often made in companies that produce 
things efficiently or produce efficient things compared to 
their competitors. They are advantaged in the competitive 
marketplace. So you can have a very counterproductive effect by 
putting in regressive energy taxes or other programs like that. 
You take capital out of the system that would normally be used 
for investment in companies that produce things efficiently. 
This is very, very obvious that people are doing this. I ask 
you to take a look at the share prices of various producers of 
automobiles and take a look at the share prices of those----
    Mr. Shimkus. And let me be real quick, Professor Schrag, 
just your quick answer on coal-to-liquid technologies. Support 
it? I mean, in your testimony you talked about being able to 
pull off the carbon stream.
    Mr. Schrag. Coal to liquids, if done improperly the way the 
South Africans do, is one of the dirtiest technologies in the 
world. If it is done properly with biomass blending and carbon 
sequestration, it can be among the cleanest technologies in the 
world.
    Mr. Shimkus. Mr. Chairman, did you hear that testimony? It 
is your witness. Did you hear his answer?
    Mr. Markey. I am sorry.
    Mr. Shimkus. I am teasing.
    Mr. Markey. No, can you repeat the answer?
    Mr. Shimkus. I am just teasing, Mr. Chairman.
    Mr. Markey. I would really like to hear the answer again, 
please.
    Mr. Schrag. The answer was that the same technology that 
makes incredibly dirty fuel in South Africa, twice the 
emissions of regular oil, if done properly with the right 
regulations, with blending biomass with the coal, and what we 
are talking about could be waste biomass or wood chips, and 
capturing the carbon from the process can actually produce very 
efficient, clean fuel, but it has to be done right, not in a 
dirty fashion.
    Mr. Markey. I will just say to the gentleman, in the 
stimulus bill, the House put in $2.5 billion for carbon capture 
and sequestration, trying to find ways of using technologies 
that can sequester the carbon. The Senate put in about $4 
billion. The debate is not over whether or not we should be 
doing something in this area, the debate is over how many 
billions of dollars we should be spending in this area. So that 
is really not what this debate is about.
    Mr. Shimkus. Yes, and we haven't seen the commerce report, 
Mr. Chairman, but I think that has now been cut to $1 billion 
from what I have heard. But I do need to just give credit to 
the quote I used on ``We will harness the sun and the winds and 
the soil to fuel our cars and run our factories,'' President 
Barack Obama, my State. We are very excited but this is part of 
the research you have to do to find out exactly what people are 
saying because this is impossible in the near term.
    Mr. Markey. I thank the gentleman and I thank all of the 
witnesses as well. This has been a very, very helpful stage-
setting hearing for us. We discussed the economics, the 
national security, and the health implications of climate 
change, and I think what we heard here today is that there is a 
real urgency for our country to become the leader, and that is 
the intention of this subcommittee and full committee. We 
intend on acting this year in a way that deals with the urgency 
of the problem, and there is good news. The good news includes 
the fact that 42 percent of all new electrical generating 
capacity installed in 2008 was wind power, 50 percent was 
natural gas, so that is not a bad formula for dealing with 
climate change, and I think that is going to accelerate in the 
years ahead, even as we do the research and deal with carbon 
capture and sequestration to try to accommodate coal in the 
years ahead. So that is a huge number, 42 percent of all new 
electrical generation capacity. It can be expected to go to 50 
and 60 percent in the years ahead as a national renewable 
electricity standard is adopted.
    So I am very optimistic, and this panel has helped to 
pinpoint the problem, but talk about some of the solutions as 
well, and we thank you for that, and with the thanks of the 
committee, this hearing is adjourned. Thank you.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Gene Green

    Mr. Chairman, thank you for holding our subcommittee's 
first hearing this morning to evaluate the impacts of climate 
change on the United States.
    The International Panel on Climate Change (IPCC) reports 
clear scientific consensus that human activities have increased 
emissions of carbon and other greenhouse gases which contribute 
to global warming.
    The questions many continue to grapple with, however, are 
to what extent will future warming occur and at what costs to 
our society?
    Several experts in academia, government, and the private 
sector believe climate change could have ramifications not only 
on global temperatures, but on America's overall economy, 
public health, and national security.
    For example, a representative from the Center for Disease 
Control and Prevention testified last Congress that climate 
change is likely to have a ``significant impact on health'' 
caused by extreme heat and weather, air pollution, and water-
borne infectious diseases.
    For urban areas like Houston, higher temperatures have been 
shown to facilitate the development of ground-level ozone which 
can lead to respiratory illnesses, asthma, and lung damage.
    I am also concerned with the anticipated impacts of climate 
change on severe weather systems, particularly in the Gulf of 
Mexico.
    The Gulf Coast has already recently been battered by 
Hurricanes Ike and Katrina which have proven the vulnerability 
of these areas to loss of life and property.
    Perhaps the timeliest factor is the economic cost 
associated with addressing, or not addressing, climate change.
    America is facing the worst financial crisis since the 
Great Depression and many family budgets are already stretched 
past their breaking point.
    Last year, government analysis by both the EPA and EIA 
found that climate change legislation would increase the cost 
of gasoline and electricity for American consumers and 
businesses.
    I have concerns with the timing of this extra burden on 
hard-working Americans and believe any efforts to address 
climate change must protect both our environment and our 
economy.
    I look forward to the testimony of our witnesses today, and 
I yield back the balance of my time.
    Thank you Mr. Chairman.
                              ----------                               


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
